<html>
<title> - [H.A.S.C. No. 114-141] National Security Space: 21st Century Challenges, 20th Century Organization</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                      
                         [H.A.S.C. No. 114-141]

                        NATIONAL SECURITY SPACE:

                        21ST CENTURY CHALLENGES,

                       20TH CENTURY ORGANIZATION

                               __________

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON STRATEGIC FORCES

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                           SEPTEMBER 27, 2016

                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


                              ____________
                              
                   U.S. GOVERNMENT PUBLISHING OFFICE
22-459                      WASHINGTON : 2017                   
                             
_______________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f592859ab5968086819d909985db969a98db">[email&#160;protected]</a>  
  


                    SUBCOMMITTEE ON STRATEGIC FORCES

                     MIKE ROGERS, Alabama, Chairman

TRENT FRANKS, Arizona                JIM COOPER, Tennessee
DOUG LAMBORN, Colorado, Vice Chair   LORETTA SANCHEZ, California
MIKE COFFMAN, Colorado               RICK LARSEN, Washington
MO BROOKS, Alabama                   JOHN GARAMENDI, California
JIM BRIDENSTINE, Oklahoma            BRAD ASHFORD, Nebraska
J. RANDY FORBES, Virginia            PETE AGUILAR, California
ROB BISHOP, Utah                     (Vacancy)
MICHAEL R. TURNER, Ohio
JOHN FLEMING, Louisiana
                 Steve Kitay, Professional Staff Member
                         Leonor Tomero, Counsel
                           Mike Gancio, Clerk
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Rogers, Hon. Mike, a Representative from Alabama, Chairman, 
  Subcommittee on Strategic Forces...............................     1

                               WITNESSES

Ellis, ADM James O., Jr., USN (Ret.), Former Commander, U.S. 
  Strategic Command..............................................     5
Faga, Martin C., Former Director, National Renaissance Office, 
  Former Assistant Secretary of the Air Force for Space..........     7
Hamre, Dr. John J., Former Deputy Secretary of Defense...........     4

                                APPENDIX

Prepared Statements:

    Cooper, Hon. Jim, a Representative from Tennessee, Ranking 
      Member, Subcommittee on Strategic Forces...................    38
    Ellis, ADM James O., Jr......................................    47
    Faga, Martin C...............................................    58
    Hamre, Dr. John J............................................    39
    Rogers, Hon. Mike............................................    35

Documents Submitted for the Record:

    GAO chart, ``Finding 1: DOD Space Acquisitions, Management, 
      and Oversight Are Fragmented Across Approximately 60 
      Stakeholders''.............................................    69

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Cooper...................................................    79
    Mr. Coffman..................................................    84
    Mr. Lamborn..................................................    80
    Mr. Rogers...................................................    73
    
    
    NATIONAL SECURITY SPACE: 21ST CENTURY CHALLENGES, 20TH CENTURY 
                              ORGANIZATION

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Subcommittee on Strategic Forces,
                       Washington, DC, Tuesday, September 27, 2016.
    The subcommittee met, pursuant to call, at 2:59 p.m., in 
room 2118, Rayburn House Office Building, Hon. Mike Rogers 
(chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MIKE ROGERS, A REPRESENTATIVE FROM 
      ALABAMA, CHAIRMAN, SUBCOMMITTEE ON STRATEGIC FORCES

    Mr. Rogers. Good afternoon. I want to welcome everyone to 
the Strategic Forces Subcommittee's hearing on ``National 
Security Space: 21st Century Challenges, 20th Century 
Organization.''
    We are honored to have a very distinguished panel of expert 
witnesses today. We have Dr. John Hamre, former Deputy 
Secretary of Defense; Retired Admiral James Ellis, former 
commander of U.S. STRAT Command--Strategic Command--the 
acronyms around here are just getting to me; Mr. Martin Faga, 
former director of the National Reconnaissance Office and 
Assistant Secretary of the Air Force for Space.
    Dr. Hamre, you are respected on both sides of the political 
aisle and known to be a wise and thoughtful leader on defense 
issues. And I am aware that you have been studying space issues 
with a group of experts for some time. And I am grateful to see 
you engaging in this very important subject.
    Admiral Ellis, you and Mr. Faga, your leadership in the 
national security space during your careers, as well as your 
recent co-chairing of the National Academies study on Space 
Defense and Protection, will provide this committee a very 
informed view regarding today's issues.
    So why are we here today? I would like to start with a 
quote. ``It is not sufficient to have just resources, dollars 
and weapon systems. We must also have an organization which 
will allow us to develop the proper strategy, necessary 
planning and the full warfighting capability. We do not have 
this adequate organization structure today.''
    ``We have made improvements, but those improvements have 
only been made at the margin. We need to do much more to be 
able to fight in today's environment that will require the 
concerted efforts for all four services.''
    ``The services can't operate alone. We are basically a 
committee system. Committees are very good at deliberative 
process, but they are notoriously poor in trying to run 
things,'' closed quote.
    This statement rings true for today's hearing. In fact, 
those words were spoken in this very same hearing room by a 
person sitting in this very same seat as our witnesses are 
sitting today.
    However, the statement was made by a witness in February of 
1982. The witness was the Chairman of the Joint Chiefs of 
Staff, Air Force General David Jones, speaking about the 
organization of the Joint Staff. The statement General Jones 
made took great courage and upset many people in the Department 
of Defense at the time.
    Organizational change is hard, and unfortunately, many 
people take it personally. However, General Jones' candor with 
Congress led to one of the most sweeping, greatly needed 
reforms of the DOD [Department of Defense], the Goldwater-
Nichols Department of Defense Reorganization Act of 1986.
    Just as General Jones had the courage to talk honestly with 
this committee, I commend the witnesses today who have had the 
courage to discuss the challenges of the posture and 
organization of our national security space activities.
    No one in this room needs to be convinced of the importance 
of space to national security. Space allows our warfighters to 
project power across the globe and to keep our homeland safe. 
Unfortunately, potential adversaries have recognized this, and 
they are developing weapons to take away the advantages that we 
have built into space.
    There is a fundamental question before us today. Is the 
Department of Defense strategically postured to effectively 
respond to these threats and to prioritize the changed space 
domain over the long term? It is all too clear that we are not.
    There is no clear leadership of the military space domain 
below the Secretary of Defense. Yes, there is an adviser, 
councils, chiefs, directors, and even commanders. As the GAO 
[Government Accountability Office] states, ``DOD space 
leadership responsibilities are fragmented,'' closed quote.
    While we certainly have great leaders within the space 
enterprise, the structure is set up such that far too many 
people are able to say no without the consequence for the delay 
and the costs they create. Those responsible for the 
organizing, training, equipping, and operational missions in 
the national security space are not actually in charge.
    As General Hyten told the Senate Armed Services Committee 
in his confirmation hearing last week, ``We are moving much 
slower in certain areas than our adversaries. We need our 
industry and our acquisition process to move faster,'' closed 
quote. I agree with General Hyten that we need to move faster.
    However, I am concerned with the performance I am seeing 
today. For example, the GPS [Global Positioning System] next-
generation ground system program is currently going through the 
Nunn-McCurdy breach for massive cost overruns, including a 
delay of operational capability that is 5 years beyond when it 
was originally planned.
    And I would like to talk about the Air Force mismanagement 
of the weather satellite program, but I don't wanna get 
spitting mad in front of everybody today. Unfortunately, this 
is not a single point case, and it raises questions on the 
current enterprise's ability to deliver the next-generation 
space system to address the threat we face.
    Separately, the military space activities are managed 
within conflicting priorities of each of the armed services. 
Many resisted the views of the airpower visionaries, such as 
Brigadier General Billy Mitchell and General Henry ``Hap'' 
Arnold, to have an independent Air Force. However, very few 
will argue today of the wisdom of their vision.
    We have the best military and civilian space professionals, 
alongside the most talented industry in the world. I believe 
the question is not of their ability, but rather what tools, 
structures, incentives, and responsibilities and authority we 
need to give them to succeed. Put it another way, even the best 
leaders can't succeed with a failed system.
    For those that shy away from reform, I ask if it is better 
to wait for a crisis to motivate those to change, or to instead 
build a better system in a thoughtful and a deliberate manner 
in order to avert such a crisis in the future. Dr. Hamre 
foreshadows in his statement for the record, ``Space systems 
will be attacked,'' closed quote.
    The 9/11 Commission noted that we had all the information 
and people we needed to prevent the day's events. We suffered 
from a ``failure of imagination,'' closed quote. We must resist 
temptation of bureaucrats to wait for a disaster to fix this 
known failure. We must expect better. This committee will.
    This hearing is the start of a focused oversight that we 
will conduct on this important topic. I anticipate it will lead 
to major reform in the Fiscal Year 2018 National Defense 
Authorization Act.
    I thank the witnesses again for being with us today. I am 
looking forward to your testimony.
    I now recognize my friend and colleague from Tennessee, Mr. 
Cooper, for any opening statement he may have.
    [The prepared statement of Mr. Rogers can be found in the 
Appendix on page 35.]
    Mr. Cooper. Thank you, Mr. Chairman, and welcome to the 
witnesses. I am happy to join the chairman in this effort. I am 
glad that we have got, once again, the coveted mid-afternoon 
hearing spot.
    [Laughter.]
    Not everyone is able to achieve that in the way we have.
    [Laughter.]
    But I would just ask unanimous consent my opening statement 
be inserted for the record. I look forward to the testimony of 
the three wise men here.
    [The prepared statement of Mr. Cooper can be found in the 
Appendix on page 38.]
    Mr. Rogers. I now will recognize the witnesses and I ask--
first of all, thank you for being here. Thank you for the time 
it takes to prepare your statements for this hearing and to 
present your testimony. It is very valuable in assisting us in 
trying to develop the policy that is so sorely needed in the 
subject matter area.
    And with that, we will start with Dr. Hamre. You are 
recognized for 5 minutes to summarize your statement. And I 
would say for--all statements will be admitted in total for the 
record, so you can summarize, if you want to, or you can read 
it, either way. With that, Dr. Hamre, you are recognized.

  STATEMENT OF DR. JOHN J. HAMRE, FORMER DEPUTY SECRETARY OF 
                            DEFENSE

    Dr. Hamre. Mr. Chairman, thank you. Mr. Cooper, thank you. 
I know every witness comes and says how grateful they are to be 
here and how grateful we are for your leadership. I really do 
think you are doing an essential service right now.
    You know, we have been drifting for 8 years, maybe 10 
years, with the knowledge that our space systems are deeply 
vulnerable, and we have not acted in any way in a manner that 
is commensurate with the nature of the threat we face. So I 
really am grateful that you are willing to take the lead here 
for the Congress, because this is crucial.
    I do have a statement, and I normally would, you know, go 
through it. I am not going to do that, if I may, because I know 
you have had a chance to look at it. I would like to say, you 
know, the Department does have pockets of real excellence in 
space. And you see the superb machines that we have built over 
time. I mean, these are marvels, the things we have done.
    And there are people that go to work every day with 
astounding dedication, you know, really working hard. But 
somehow, in a macro sense, we are failing to see what is 
obvious now to us, that our opponents understand quite well 
what they could do to change our entire posture. And we are not 
responding in a very effective way.
    And I ask myself why? Why is it that, when it is so obvious 
what is happening, why isn't that we have been able to respond?
    And, you know, the one thing I have done is spend a lot of 
time thinking about organization in the Department of Defense. 
And there is no perfect way to organize the Department of 
Defense. It is such a vast enterprise. And I will say my 
testimony, it is about moats and bridges.
    I mean it. When you create an institution, the first thing 
that institution does is dig a moat around itself to protect 
itself bureaucratically. And it is up to then the Secretary to 
find ways to get bridges, you know, and drawbridges and 
hopefully they are down all the time, you know, where we can 
get them working together. And we are failing here on this.
    We do have mighty moats separating things, but we are not 
bringing the whole together effectively. There are three 
crucial circles. If you think of a Venn diagram, they shouldn't 
be perfectly overlapped. There is only one place where these 
three circles overlapped in the building, and that is with the 
Secretary.
    But you have an organizing principle, the title 10 
authority. You recruit people, you train them, you build 
facilities for them, you know, you give them equipment, et 
cetera. So you have got a title 10 organizing principle. You 
have got an operational response of people that go to work 
every day to execute a military mission.
    And then the third circle is the strategic guidance. What 
are we doing? Those three are not in alignment in an effective 
way in the Department. And they haven't been in in an effective 
way for probably 20 years.
    That is, I will hope with your work you help bring a focus, 
how to bring those into proper alignment. We do have people 
that are going to work every day operating the satellites. We 
do have people who are going today building things, although I 
would say our recent performance has been disappointing 
compared to what it could have been and what it was in the 
past.
    We have, again, pockets of excellence. NRO [National 
Reconnaissance Office] is a pocket of excellence. But we are 
not uniformly excellent. I would say the piece that is missing 
is leadership. Now, that is the purpose of your hearing today, 
and I indicate in my little testimony, you know, there are four 
broad things you could do.
    You could create a fifth service, big mighty moat, very 
hard to build bridges. You could create an analog to the 
Missile Defense Agency with space. That takes care of the title 
10 authority. That takes care of the operational authority. It 
doesn't solve the leadership question.
    You could restore the stature of the Space Command, make it 
a four-star equivalent combatant commander, along with the 
Strategic Command. That is the easiest thing to do.
    You could give it SOCOM [Special Operations Command]-like 
authorities, you know, where it buys things--so you could again 
solve it. You are still not solving the leadership question.
    And then a fourth option is you create kind of a parallel 
to the Navy and the Marine Corps, where it is the Department of 
the Navy. You have a Department of Air Force, but you have got 
a separate service that is worrying about space.
    All of these are options. None of them still get at this 
core question of leadership at the top. And I know that the 
Department, or recently, they have tried to solve this by 
making the Secretary of the Air Force kind of the senior 
person. It is just not providing the leadership that we need as 
a nation.
    Let me stop at that, and we will come back and talk to it. 
My time is out, sir. Thank you.
    [The prepared statement of Dr. Hamre can be found in the 
Appendix on page 39.]
    Mr. Rogers. Thank you.
    Admiral Ellis, you are recognized for 5 minutes.

   STATEMENT OF ADM JAMES O. ELLIS, JR., USN (RET.), FORMER 
               COMMANDER, U.S. STRATEGIC COMMAND

    Admiral Ellis. [Inaudible] for your calling this hearing 
today, and I am pleased to appear before it with my 
distinguished colleagues. As you mentioned, Marty Faga and I 
had the privilege of co-chairing a study over the last year and 
a half related to national security space protection and 
defense.
    And as I noted in my prepared testimony, that addressed 
technological, policy, and strategic issues. It did not address 
organizational findings and recommendations. And I appear at 
the invitation of the subcommittee to present my personal views 
on these critical issues, not those of other study participants 
or the National Academy.
    In my few minutes of opening remarks, I want to touch on a 
couple of areas that I think are essential to successfully 
addressing this urgent national security need. They touch, bin 
largely into seven specific areas that, based on my long-ago 
naval background and, perhaps, in a too-cute pun I call the 
seven C's, because each of them begin with ``C.''
    And the first of them is commitment. We are facing a 
serious multifaceted threat to our use of space in support of 
our national security. And as Dr. Hamre has noted, the threat 
to our space assets has been emerging over two decades at an 
increasing rate, and our response to challenges identified long 
ago has been too slow.
    We now understand that mitigation of the threat and 
creating resilience in our space systems will require a focused 
effort over many years by many organizations. There is not a 
one-and-done solution. Whatever changes we make, be they 
policy, strategy, operational, technical, or organizational, 
must be rapid, flexible, efficient, and effective, and we must 
be committed to the task.
    The second ``C'' is capabilities, as you have noted. It is 
no secret that in the realm of national security space we are 
not where we need to be. We need enhanced and focused 
intelligence, dramatically improved space situational 
awareness, improved technical capabilities, and tactical tools 
made readily available to those we hold responsible every day 
for space security.
    We need to make resilience a specified requirement in all 
elements of our systems, and understand both that not all 
threats to our space systems are in space and not all 
countermeasures or responses are on orbit.
    Finally, and perhaps most importantly, we need better tools 
to analyze our space-related critical infrastructure so that we 
understand where the risk is greatest and the need most urgent 
so as to appropriately prioritize allocation of resources to 
get the most improvement in the shortest period of time.
    The third ``C'' is competence. We must effectively 
integrate national security space policy and strategy with 
procurement and operational capabilities. Neither can function 
well without the other. Diffused capabilities are often 
necessary to meet the varied needs of warfighters, but there 
must be consistency of policy and strategy and mechanisms for 
sharing technological innovation, procurement efficiencies, and 
best practices.
    I fear bureaucracies as much as anyone, but Admiral Hyman 
Rickover was fond of saying, ``If everyone is responsible, no 
one is responsible.'' There must be a leader, a champion for 
national security space at a level that cannot be ignored.
    The fourth ``C'' is credibility. Some use the word 
competence and credibility interchangeably. In my view, they 
are not the same at all. Competence is what you are, but 
credibility is what people think you are.
    Our national credibility in addressing national security 
space is shaped both by our policy and our strategy. I believe, 
as President Kennedy did, that conflict in space is not 
necessarily inevitable. By our policies and leadership, we can 
deal with the space environment we have while shaping the 
environment we want.
    A clear and credible national space strategy is essential 
to defining deterrent concepts appropriate for the space 
environment. As I sometimes note, tactical energy in a 
strategic vacuum is a recipe for disaster.
    The fifth ``C'' is communication. Clear and unambiguous 
communication is essential to success in this effort. 
Externally, the tone and tenor of the conversation must be 
balanced and appropriate, but they must also be realistic in 
both reassuring allies and deterring adversaries.
    As a nation we must be clear as to what we stand for in 
space and what we will not stand for. Internal communication is 
also critical to shared understanding among those many entities 
in the interagency process.
    The sixth ``C'' is collaboration. Just as space can be seen 
as a newer version of the maritime global commons, addressing 
the security challenges demands a collective and international 
approach. Internationally, we must lead and shape not a 
coalition of the willing, but a coalition of the ready, 
willing, and able.
    This cannot be seen as a United States effort alone. It 
must be viewed as what it is, a shared effort for the benefit 
and security of all humankind. Domestically, the commercial 
space sector in all its diversity must be a real partner in the 
operational and policy effort along with NASA [National 
Aeronautics and Space Administration] and NOAA [National 
Oceanic and Atmospheric Administration]. In fairness, we have 
seen nascent efforts in this area, but there is still much to 
be done.
    The seventh ``C'' is courage, as you noted earlier, Mr. 
Chairman. Effectively addressing the national security space 
challenges will require organizational and individual courage. 
We often say that change is hard, but the reality is that 
things change all the time. In my view, it is the rate and 
acceleration of change that is hard. In engineering terms, the 
first and second derivative.
    Creating an appropriate national security space 
architecture, improved analytical capabilities, enhanced 
capabilities, greater robustness, essential resilience, and 
real deterrence will require a sustained effort and real and 
effective change.
    I thank you and look forward to your questions.
    [The prepared statement of Admiral Ellis can be found in 
the Appendix on page 47.]
    Mr. Rogers. Thank you, Admiral.
    Mr. Faga, you are recognized for 5 minutes.

    STATEMENT OF MARTIN C. FAGA, FORMER DIRECTOR, NATIONAL 
RENAISSANCE OFFICE, FORMER ASSISTANT SECRETARY OF THE AIR FORCE 
                           FOR SPACE

    Mr. Faga. Thank you, Mr. Chairman and thank you. The clock 
is still counting. Thanks for the invitation to appear here 
today. I knew that my colleagues were going to develop the 
organizational issues that you raised, so I would like to 
develop it from the perspective of acquisition, where I am most 
expert and which is a key component of the challenges that 
confront us.
    During the conduct of the NRC [National Research Council] 
study, we recognized that acquisition has to be more flexible 
and far faster than it is today. The current times an analysis 
of alternatives [AOA] typically takes 2 years. At the end of 
that time, it is commonly recommended that we continue on the 
same course.
    General Hyten recently noted that when he asked the authors 
of a recent AOA why they had recommended the status quo, they 
replied that they had received no requirements for resilience, 
so they didn't know how to treat it. Now that isn't a very 
desirable answer, but it is understandable. The combat 
commanders don't yet know how to answer that question.
    Our space programs are accomplished by program managers 
[PMs]. They are my most admired people. In its recent report on 
defense space acquisitions, the GAO noted that for some 
programs, PMs are reviewed by 56 organizations at 8 levels 
above them. Needless to say, these long processes consume 
months and much of the time and energy of the program manager.
    In its report the GAO also stated, ``By contrast the NRO's 
processes appear more streamlined than DOD's.'' Why is that? 
There are a number of reasons. The NRO has a relatively narrow 
mission and its high priority is widely acknowledged. The NRO 
is a joint activity of the DNI [Director of National 
Intelligence] and the Secretary of Defense, and the director 
reports to them through a very short reporting chain.
    The NRO can fully engage in the budget process of which it 
is a part. I gave many more reasons in my written testimony 
that we can talk about later, if you wish.
    In addition to DOD and NRO space activities, there is a 
third element, commercial space systems with national security 
application. Today this is primarily satellite imaging and 
satellite communications [SATCOM]. The DOD buys lots of 
satellite communications, but usually with short-term 
contracts.
    For years, SATCOM operators have pushed the government to 
engage in longer term arrangements that would encourage and 
guide investments. There is an example of where the government 
did exactly that.
    NGA [National Geospatial-Intelligence Agency] has a 10-year 
fixed price contract with DigitalGlobe to deliver imagery as a 
service. This meant that DigitalGlobe capitalized the 
satellites, that is they raised the money, had them built, 
launched them, and operates them. NGA has substantial tasking 
rights and gets a large portion of the daily take, all for an 
annual fee.
    I will close by offering just a few thoughts on 
organizations. Ideas have been put forth for many years of ways 
to organize space more effectively, to put one person in 
charge, and to streamline. We do need to remember that 
acquisition of national space systems is carried out almost 
entirely by three organizations: Air Force Space and Missile 
Systems Center, NRO, and Navy Space and Naval Warfare Systems 
Command.
    All are relatively small, on the scale of military 
organizations, and capable organizations that work effectively 
on behalf of their users. Operations are carried out by Air 
Force Space Command and smaller Navy and Army commands. The 
problem they all have to deal with is those many levels in 
organizations above them that interact with every decision that 
they make.
    One common prescription is to establish a very senior 
position charged to pull all of this together. I worry that 
instead of solving the problem, we simply increase 56 to 57, 
and I have seen that before. Moreover, and the most important 
thing I will say today, in my experience, the most important 
thing is to keep the acquisition process tightly tied to the 
mission, that is the ultimate users, whether they are 
intelligence users, military users, or whomever.
    Big organizational changes come with long-term impacts. I 
reorganized the NRO almost totally in 1992. It was the right 
thing to do, but it took 10 years for the NRO to fully work 
through that. The current situation I would start by asking the 
Secretary of Defense to review what do all the people who 
interact with space do and is there value added?
    I would measure the response by constantly examining what 
happens to the program manager, the person actually getting 
something done? When the program manager starts the journey, 
what happens along the way? If the program manager's life is 
getting better, we are on the road to success.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Faga can be found in the 
Appendix on page 58.]
    Mr. Rogers. I thank all the witnesses for those outstanding 
opening statements.
    Now I will recognize myself for the first questions. And I 
want to start by trying to help us understand the challenges 
that we face. And I would tell all the witnesses, I am going to 
ask for a yes or no answer, but don't worry. In just a minute 
on the second part of this question you will get to expand. So 
don't feel like I am boxing you in.
    I would ask each one of you, do you believe that we are 
currently adequately postured to address the serious challenges 
faced in space?
    Dr. Hamre.
    Dr. Hamre. No.
    Mr. Ellis. No, I do not, sir.
    Mr. Faga. No.
    Mr. Rogers. Great. Let me ask this. Why do you believe 
that, Dr. Hamre, and just be succinct and try to abbreviate 
your--in a nutshell what you think is the reason why we are not 
adequately prepared?
    Dr. Hamre. I do not think that we have exercised the 
appropriate strategic leadership probably for 15 years on 
space. This problem has been growing. It is far more dangerous 
than we realize. We have not challenged the combatant 
commanders to understand their vulnerabilities.
    We have not done a stress test to really know what would 
happen to us. We have been too preoccupied with getting a broad 
space policy right without operationalizing it and turning it 
into real doctrine.
    Mr. Rogers. Okay.
    Admiral Ellis, why not?
    Admiral Ellis. I would echo Dr. Hamre's comments. We have 
been surprised. We assumed space would always be the sanctuary 
it was 15 or 20 years ago. The technology and the threat has 
outpaced our creation of policy and strategy appropriate to the 
need. Most importantly, we lack significant capabilities.
    We are playing catch-up in a very real sense, but it is not 
just about hardware and technology. A lot of it is about 
policies that deal, as I said earlier in my opening remarks, at 
the strategic level. What is it we stand for? What is it we 
will accept? What are the concepts of deterrence that are 
appropriate for this new domain?
    That conversation, while under way now, is beginning and 
you can look back, as the committee has, at virtually two 
decades of studies that have highlighted this both on the 
procurement side and on the operational and policy side.
    So I think we got surprised, quite frankly, and a number of 
people along the way predicted that possibility even and now we 
find ourselves playing catch-up in a very real sense. A lot is 
under way. The awareness is certainly there.
    You hear it and see it in a lot of the products and 
writings and things that are being produced, particularly 
within the Air Force. But unfortunately I don't think we are 
moving at a pace that is going to close the gap that needs to 
be closed very, very quickly.
    Mr. Rogers. Mr. Faga, why are we not prepared?
    Mr. Faga. I would start off by saying we say quite a bit 
about this in our NRC study, which is available free online to 
anybody. We don't fully know how to respond.
    The experience that General Hyten had of realizing the 
combatant commanders can't yet tell him what capability they 
need, how will their war plans change, and what backups will 
they use? What non-space assets could be pursued? We don't have 
all of that. We don't have all that worked out.
    As Admiral Ellis testified, there are things we can do. 
Arrangements with allies, codes of conduct, deterrence 
measures, things we can do at the strategic level that will 
help the situation.
    This is a problem really only fully recognized, in my view, 
in 2014. I will have to say, as Admiral Ellis said, lots going 
on in the Pentagon, but it certainly hasn't come together to an 
adequate answer to the question you asked.
    Mr. Rogers. Well, I think that the degree of exposure has 
heightened in the last couple of years and probably since 2014, 
but Admiral Ellis is right. This has been recognized for nearly 
two decades as a problem area and studied to death for 2 years, 
which leads me to my next question.
    Do you think this is a problem the DOD can correct itself 
or will it need to be compelled by statute to do something in 
particular to remedy the situation? And I will leave that to 
anybody who wants to answer.
    Mr. Faga.
    Mr. Faga. So in my mid-career, I spent time as a staff 
member on the House Intelligence Committee staff. And one of 
the things I watched and learned is the first thing you want to 
do is lay out for the Department what the problem is and ask 
them to come up with a solution so that they do that inside the 
construct in which they live. It probably won't be adequate.
    And secondly, they will need legislation from you for 
powers they don't currently have. But I think it starts with, 
let them tell you what they need to do.
    Admiral Ellis. Mr. Chairman, as we talked in your office, I 
am very reluctant personally when I am outside an organization 
to offer prescriptive comments on exactly how they need to 
reorganize.
    It goes back to my days as a young test pilot when I would 
find a deficiency in a new aircraft and I was cautioned, never 
tell the contractor or the designer what to do to fix it, 
because if he does what you told him to do and it doesn't fix 
it or it has unintended consequences, you are liable and the 
program is no further along.
    The better approach is to tell him this problem needs to be 
fixed and let him use his creativity and insight to do that. 
Now, he needs to be held accountable for that corrective action 
there is no doubt.
    So I would only suggest that DOD, with the right level of 
understanding, which I believe that they have now on the 
seriousness of this, ought to be asked and expected to identify 
whether the changes that they put in place have delivered on 
the promise that they expected, whether the timelines are 
reduced, whether efficiencies are being realized, whether this 
collaborative process is working.
    My personal view, and I think I am aligned with Dr. Hamre 
in this regard, is we need to put somebody in charge and give 
them the authorities and the accountability for outcomes, not 
aspirations.
    But I would encourage them to be given the opportunity to 
shape an organizational structure that best suits their needs. 
It is kind of like where you put the sidewalks on a college 
campus. In organizational structures you put the sidewalks 
where the paths are worn in the grass. And so within the 
organization, who needs to talk to each other, who needs to 
communicate in order to get the job done ought to be the way 
they begin to pursue organizational realignment.
    Mr. Rogers. Thank you.
    Dr. Hamre.
    Dr. Hamre. You know, it is the Congress that establishes 
national goals and gives direction to the executive branch to 
undertake them. I would think it is best for the Congress not 
to tell the executive branch how to accomplish those goals, but 
we have watched 20 years where this has not come together.
    And I ask myself why has it not come together? And I think 
it is because internally we have been fractured. And it has 
been hard to sustain a focus in the Department, common across 
the board. So I, I do think you are going to have to put 
pressure to get this done right and you have an opportunity 
with a change of administration coming.
    And I think you should think about concrete things that 
need to be done in a 3-year window, because that is roughly the 
window of a Secretary, and an 8-year window, roughly the time 
horizon an administration is in office and accountable, and 
then the past 8 years.
    And I think each of the tasks we need in each of those 
categories will be equally urgent, but I think we need to 
disaggregate the nature of this problem. Because right now we 
are too diffuse----
    Mr. Rogers. Right.
    Dr. Hamre [continuing]. And we are not coming up with 
answers to these problems.
    Mr. Rogers. Well, thank you. Before I yield to the ranking 
member, I wanted to point out just to give you some, everybody 
in the room some idea about how difficult this problem is. The 
GAO stated space acquisition management and oversight is 
fragmented across 60 stakeholders.
    So I asked the GAO to put together an organizational chart 
just so we could get a good mind's eye view of what it is like. 
They said it was too complicated to put a chart together. So 
what they gave me was this list of--I don't know what it is a 
list of, just complexities.
    So I had my staff try to put together an organizational 
chart, and this is it. Nobody has got line authority to make 
decisions, and this org chart has to be simplified.
    [The chart referred to can be found in the Appendix on page 
69.]
    Mr. Rogers. So with that, no pressure, ranking member, you 
tell us how we are going to simplify it.
    Mr. Cooper. Thank you, Mr. Chairman. I share your 
commitment to enhance our space capabilities. I do think it is 
important to point out, though, that we have much to be proud 
of, what we have today. I think none of the witnesses would 
want to trade our capability with that of any other nation. So 
I think, really, more the question is preserving our margin of 
excellence over any possible rival.
    I appreciate your testimony and the accumulated wisdom that 
you all have. There are many ways to fix a problem. I hope that 
the next Congress will be able to tackle this issue based on 
the foundation that the chairman is laying.
    Dr. Hamre, in your testimony, you talked about some pockets 
of excellence that are out there, things that even by our 
desire to enhance our program are still performing at near peak 
levels, and I think you mentioned NRO.
    Mr. Faga mentioned program managers as generally excellent 
in what they do. Would you share his enthusiasm for that level 
of what Air Force colonel that is out there making projects 
happen?
    Dr. Hamre. Well, the NRO has had a demonstrated history of 
really quite high performance. You know, in general, I think 
our acquisition system has declined over the last 30 years. I 
hate to say it.
    I think it is in large measure because we have elevated the 
gunsmithing of buying things above the marksmanship questions 
of what we are trying to do. And I, you know, I just--I hate to 
say this, but we need to go back and revisit the Packard 
Commission and the way we created the institutions recommended 
in the Packard Commission.
    We have created a giant compliance organization in the 
building. It used to be that a brilliant colonel with a couple 
of briefings could be in front of the Secretary of Defense 
within weeks. You know, now it takes a couple of, it takes 
months, maybe even a year for a good idea to get in front of 
the Secretary. And the steps along the way are just 
unbelievable. So broadly, the acquisition system, in my view, 
is failing us.
    Mr. Cooper. That is, indeed, a big task, but Chairman 
Thornberry is working to try to improve that. One of you 
gentlemen pointed out to us before the hearing that there were 
many fewer challenges, contractor contests of bids, you know, 
10, 20, 30 years ago, but now it is almost a routine matter.
    So when you mentioned compliance, I think you are really 
talking about making something challenge-proof once the 
contract is awarded, right? This is kind of gold-plating the 
procurement process so that it is incredibly slow, and by the 
time the technology is fielded, it is largely out of date.
    Another important aspect of the overall testimony was 
Admiral Ellis' focus on the global commons and comparing it 
with the way the seas were viewed, you know, a long time ago. 
Establishing some sort of international framework for this or 
even establishing our own warfighting rules is going to be a 
challenge.
    And I look forward to receiving your guidance on that, 
because these are indeed complex matters and probably no one 
has thought through all the implications of what needs to be 
done.
    I found particularly interesting Mr. Faga's trust in the 
program managers and his management philosophy that if you 
empower them and get all the distractions out of the way, they 
will be able to do a better job.
    Mr. Faga, if you could describe for us briefly the career 
path of these program managers? We talked about this briefly 
before the hearing and about when they exit the Air Force or 
the service and then what they move on to?
    Mr. Faga. I did describe a career path, unfortunately one 
seldom followed today, but it typically starts as as a junior 
officer or civilian at a subsystem project level, then moves up 
to project manager for a subsystem. It usually involves an 
operational tour of some kind.
    At some point a director of engineering in the SPO [system 
program office], commander of a ground site, deputy program 
manager, program manager, and that typically took about 20 
years. And as I said to you, nobody ever contested those 
colonels.
    When I was at the NRO, I called them the great colonels. 
And when I talk to some of them today, 20-some years later, I 
still say the great colonels. But we are not doing that kind of 
development nearly as much today, whether in the NRO or in the 
Air Force.
    It is one of the reasons I pushed hard a few years ago, 
successfully ultimately, to get a permanent engineering cadre 
in the NRO, which it did not have and which it is now building. 
My view being this is very complicated stuff and people need to 
spend 20 or 30 years doing it, not an occasional tour.
    Mr. Cooper. You pointed out something to me I found very 
interesting, that these colonels actually shunned promotion.
    Mr. Faga. Again, we are talking a time in the past, but I 
would speak to lieutenant colonels and say, look, you have got 
to get out of the NRO. I will help you get a great assignment 
in a regular--you can't get promoted maybe even to colonel, 
certainly not to general.
    Every single one of them said, ``I don't care. I believe in 
this work. I like the organization. I will retire as a 
lieutenant colonel or a colonel. I will go into the industry. 
Please don't worry about me anymore.''
    Mr. Cooper. So it sounds like part of it was the passion 
for their project, but part of it was an alternative career 
path that was as attractive for them or more attractive than 
becoming a general.
    Mr. Faga. Frankly, the most successful post-military 
careers are colonels who are in their late forties or early 
fifties, plenty of runway. Many of them became vice presidents 
in the business, and they knew that. They knew that. But 
frankly to them it wasn't the rank or the money. It was, ``I 
can stay in the business. I can keep doing this.''
    Mr. Cooper. So perhaps we on the committee need to 
understand that real world relationship and take that into 
account. One thing that I have worried about for a long time is 
the punch-your-ticket mentality where people do an assignment 
for 2 or 3 years, but by the time they get good at it they get 
promoted out of there and you lose that expertise that you are 
training into them all the time.
    But another facet seems to be that some of these 
extraordinary performers are being taken by private industry. 
And they lead very productive commercial lives then but we lose 
their military expertise. So figuring out that relationship is 
something that we are going to have to be able to do, as is 
having fewer layers of management over these people so that 
there is less red tape to cut through.
    I thank you, Mr. Chairman. Perhaps we will have time for 
another round of questioning.
    Mr. Rogers. We will. I thank the gentleman.
    The Chair now recognizes gentleman from Arizona, Mr. 
Franks, for 5 minutes.
    Mr. Franks. Well, thank you, Mr. Chairman, and thank all of 
you for being here. It is always encouraging to me to have 
people like you thinking and doing the things necessary to help 
protect our children. I have got 8-year-old twins and I really 
like them, and I really appreciate you guys for watching out 
for them.
    Admiral Ellis, I was particularly impressed with your 
testimony and I wanted to ask you, what is your understanding 
of the arrangements there in place between the DOD and the 
Intelligence Community as it relates to the various commercial 
companies regarding the U.S. Government's ability to task and 
use those commercial satellites that we have in space in times 
of crisis or wartime?
    Admiral Ellis. Well, thank you, Mr. Franks. There are a 
couple of dimensions or a couple of levels to that. First off, 
as we have noted earlier, there is a nascent effort to bring on 
the operational side the private sector, the civilians into the 
JICSpOC [Joint Interagency Combined Space Operations Center], 
and as you are well aware and bring a presence there.
    The authorities do not yet exist, as I understand it, for 
DOD to exercise actual control over those resources and the 
like. But at least they are communicating to the extent that 
classification levels permit, which is, again, an issue that we 
have to deal with sometimes.
    The space situational awareness, the information that we 
have we can't share with the commercial colleagues. So on the 
operational side there is movement and some low levels of 
progress.
    On the procurement side, as Mr. Faga has already indicated, 
I think DOD is recognizing that the improvements and 
enhancements in the private sector capabilities that are 
resident on orbit are absolutely staggering, and in many cases 
offer a more ubiquitous, if you will, presence and ability to 
draw unnoticed perhaps that would not necessarily be resident 
in a DOD dedicated system.
    And you have to assume that our adversaries know exactly 
what the orbital parameters are and when the television camera 
is overhead and the like. And the more of those things on which 
we can draw, I think, the better.
    But I don't, and my impression is, I don't have, you know, 
up-to-date information as of today, but the contracting 
vehicles that Marty referred to earlier, the ability to buy 
this access on a regular basis on the spot market, to make 
long-term commitments that would allow the private sector to 
grow those capabilities even more given a level of certainty in 
terms of the DOD being a reliable customer is not yet where it 
would need to be to close the business model, if you make the 
case.
    And don't misunderstand me. These folks are patriots, too. 
Not every patriot wears uniforms. They are trying to do what 
they can to support the national security needs of the Nation 
and have for many, many years.
    But they are frustrated by their inability to deal over the 
long term. They are having to make business decisions, talk to 
shareholders and make financial commitments and yet they don't 
have certainty as to the long-term character of DOD's 
relationship.
    And those things need to be addressed and can be to create 
the kind of system we want, a national security space 
enterprise that, as I said in my testimony, that essentially 
redefines what national security space looks like. It isn't 
just the NRO. It isn't just the DOD.
    It is the commercial sector, and not just the 
communications, as important as that is, but now the imagery 
and the like that can come from those resources. And that has 
the potential to be a much more reliable and resilient system. 
And so we need to move and improve in that situation.
    Mr. Franks. Well, I might, Dr. Hamre, let me, if I could, 
expand the question a little bit and then pass it over to you. 
Given what I am hearing from Admiral Ellis, that we don't have 
all of those things figured out just yet as far as what we can 
use and cannot use, what are the most time-sensitive reforms we 
have to implement in order to be prepared for a conflict that 
either begins or spreads into space? And what is your 
understanding of our ability to use some of those private 
resources?
    Dr. Hamre. Well, sir, what I wanted to bring to the 
committee's attention, we do this right now in aviation. We 
have something called the Civil Reserve Air Fleet.
    We pay commercial airlines money to put features into 
commercial aircraft so that they are useful for us for military 
purposes. We give them a subsidy every year for carrying around 
that dead weight because it is important to us.
    When they are mobilized, we indemnify those aircraft. We 
use them in wartime. We have a model that we could use for 
space, probably have to be adapted in some ways, but we have a 
model. And it exists. It is legal. It has been proven out in 
our system.
    So this is something we can do. And I really would think it 
would be an important contribution for your committee to 
develop the architecture for that.
    Mr. Franks. Thank you, Mr. Chairman.
    Mr. Rogers. Thank the gentleman.
    The Chair now recognizes the gentleman from California, Mr. 
Aguilar, for 5 minutes.
    Mr. Aguilar. Thank you, Mr. Chairman. Admiral Ellis, in 
your testimony you pointed to one of GAO's proposals, the 
creation of a defense space agency as the one to clearly define 
responsibilities, leadership, and authorities for the oversight 
of military space.
    In your opinion and if some of the other witnesses could 
also comment, what are some of the risks you foresee if the 
defense space agency were to be created?
    Admiral Ellis. I am sorry. For clarification, sir, you want 
the risks, the downsides of that?
    Mr. Aguilar. Correct. Correct.
    Admiral Ellis. Well, as you may recall, in a proposal that 
I endorsed for that, it was primarily focused on the 
procurement and not on the operational side. But I think some 
would view it as a negative that it didn't include all national 
security space.
    In other words, the way I see it, because of the 
capabilities and the efficiencies and the better performance we 
have seen in the NRO, I did not believe and do not believe that 
homogenizing that by bringing it and all its capabilities under 
the Department of Defense is a thing to do. So it would not in 
that sense oversee all of the national security space.
    It would require some legislative relief. That is not 
necessarily a problem, but it could be and that is certainly 
your area of expertise and not mine. And it does have, as do 
all changes that are proposed or addressed by the GAO other 
than the do-nothing option, has the potential for some level of 
disruption.
    But, you know, we have given this opportunity for change 
two decades now. And we have seen some here in the last couple 
of years, particularly within the Air Force, certainly a focus 
from the Office of the Secretary of Defense on this.
    The question is is this making a difference? Is this 
enough? Is this kind of an incremental approach that isn't yet 
delivering on the potential and the needs to improve the 
process?
    So again, I am not a big favor of dramatic increases in 
bureaucracy. I am not a big fan of precipitous and unthoughtful 
action, but we have got to do something different than we have 
been doing to get a different outcome.
    And so that is the reason that I believe that raising this 
to the Under Secretary of Defense level, the accountability for 
space, and as I said in my opening remarks, being accountable 
for outcomes and not aspirations is hugely important. But with 
that have to come the authorities and the responsibilities that 
enable that be happening, to happen, so----
    Mr. Aguilar. Others on risks?
    Dr. Hamre. I would say I think the downside in my view of 
this is that we will look at this as a military hardware-only 
solution. You create an organization that is designed to build 
military hardware, that is all they are going to do.
    And I think the architecture of survival and resilience 
going forward is going to be far more dependent on commercial 
platforms and diversification of our capacities than it is 
about buying military stuff. We are really good at building 
reconnaissance satellites--really good. But we can only afford 
to buy one or two of them.
    You know, we need to find a totally different way where we 
are putting much more of our focus on what the private sector 
can give us and how we would use that. And we have put a 
provocative thought in front of you but, you know, I think the 
average number of airmen it takes to maintain a satellite's 
constellation is like 700.
    But the average number of people you would find in a 
commercial satellite operation running a satellite network is 
10, okay? And there is just a different world here, and we have 
got to start thinking about how do we tap into the private 
sector and the capabilities that they can give us that we could 
use?
    And I think the only reason--I am not arguing with Jim's 
recommendation, Admiral Ellis' recommendation, but it would 
again lock us into thinking we have to have military answers to 
this problem. I would like us to have commercial things.
    Mr. Aguilar. Sure.
    Mr. Faga.
    Mr. Faga. Many advantages which the NRO enjoys, almost all 
of them are externally granted, so this isn't something that 
came from within. There is an organization in DOD that is 
similar, Missile Defense Agency [MDA].
    In fact, it is fascinating. I was amazed, in fact, in a 
study not too long ago, to look at the charter and the 
authorities of the director of MDA, a charter written around 
2002 or so. It reads like the 1961 charter of the NRO. It is 
absolutely amazing. And frankly, dealing with a very, very 
difficult problem, I think they have worked wonders.
    So we do have examples inside of DOD that I think are 
instructive.
    Mr. Aguilar. Thank you. I yield back, Mr. Chairman.
    Mr. Rogers. I thank the gentleman.
    The Chair now recognizes the gentleman from Colorado, Mr. 
Lamborn, for 5 minutes.
    Mr. Lamborn. Thank you, Mr. Chairman, for having this 
important hearing. And I want to thank each of the panelists 
for your presentation. In 10 years this is one of the best 
presentations I have ever been witness to, so thank you.
    You have all referred to snippets of what the problem is 
and I want to ask each of you to define as concisely as 
possible what it is we need to solve. I have heard you quote 
Admiral Rickover ``If everyone has responsibility no one has 
responsibility.'' General Hyten was quoted to the effect that 
resilience has only now recently become a priority.
    It takes too long to bring assets online and there are too 
many layers of reporting and review. But what is it that we 
need to solve? Could you each state that for the help of myself 
and the rest of the committee?
    Admiral Ellis. Well, sir, and it can sound overly 
simplistic, and I don't mean it this way. You have touched on a 
number of the dimensions. And this is a multifaceted problem. 
There isn't just one single element.
    But in the end, it always comes down to leadership. It 
always comes down to a commitment on the part of those that are 
responsible for this that they believe passionately and that 
they have the authorities they need to do it. They have the 
accountability and that they are comfortable with, and they go 
out and get it done.
    Now, that sounds simplistic, and I don't mean it that way. 
There is a lot of detail underneath all of that. 
Organizational? Yes. Technical? Certainly. Resiliency I talked 
about in my statement.
    All those things are the kinds of things that the leader 
needs to bring into focus. But it needs to be done, and it 
can't just be talked about. It just can't be reviewed. We don't 
need another study and the like.
    We know, I think in our hearts, what needs to be 
accomplished. We just need to have the courage to go out and do 
it.
    Dr. Hamre. Sir, I would say we are coming up on a new 
administration. If I was in your position, what I would demand 
is that the Secretary and the Chairman of the Joint Chiefs do a 
stress test of all of our war plans on what happens with 
plausible space denial action by opponents.
    We will know where we are if you do a real stress----
    Mr. Lamborn. Which I think is what JICSpOC is supposed to 
help resolve?
    Dr. Hamre. Well, the Secretary needs to do this and the 
Chairman needs to do this.
    Mr. Lamborn. Okay.
    Dr. Hamre. This has to be at the very top in my personal 
view.
    Mr. Lamborn. Okay.
    Dr. Hamre. And then the second thing that needs to be done 
immediately is a cyber evaluation. I personally believe the 
easiest way for the opponents to get in is through cyber. And I 
personally believe they are probably already there. We cannot 
afford to find that out in the start of a war. We need to 
figure out where we are for reliability now.
    And then the longer term is how are we going to get greater 
diversity and use of private sector assets? We buy it, we pay 
for it, you know, we rent it, whatever, so we are not entirely 
dependent on these great big expensive, small number of 
platforms that are easy to attack.
    Mr. Lamborn. Mr. Faga.
    Mr. Faga. So who is in charge of military air? Who is the 
one person in charge of military air? All four services do it. 
There is no one person in charge. And the reason for that is it 
is very complex. All the services are engaged, OSD [Office of 
the Secretary of Defense] engaged. It is a fundamental 
capability.
    I don't mean that the stewardship of it isn't good. I think 
it is because it is well-developed. It is well-established. 
This is all new for the space community. That is why my view is 
just looking for the right person to attach all of those 
spaghetti lines to is not the answer.
    Everybody has got work to do here. People want to make the 
acquisition process faster. I certainly do. In fact, in my 
early years in the NRO as an engineer, our standard planning 
number for a new system was 42 months to delivery, and we 
routinely met it.
    But there are policy issues. There is the education of the 
combatant commands who all say they need it but don't fully 
understand its significance.
    There are jobs for everybody to do and it takes leadership, 
just as it takes leadership in the services to run their air 
assets, which in the Navy is only one of several major assets.
    I would want to look at the multifaceted problem that we 
have here more than look for, who was that person that I can 
put in charge of everything?
    Mr. Lamborn. Thank you all.
    I yield back, Mr. Chairman.
    Mr. Rogers. I thank the gentleman.
    The Chair now recognizes the gentleman from Oklahoma, Mr. 
Bridenstine, for 5 minutes.
    Mr. Bridenstine. Well, I appreciate that, Mr. Chairman. It 
is an honor to be here with you gentlemen. The folks that work 
in our space industry today stand on the shoulders of giants, 
and you are those giants. And it is great to have you before 
this committee.
    I would like to start by saying I have read a number of 
the, maybe not recommendations, but the different options that 
have been presented by the three of you.
    One that I think is of particular interest is the idea of 
the reestablishment of a U.S. Space Command, not just Air Force 
Space Command, but a U.S. Space Command.
    In other words, a functional combatant command similar, you 
mentioned, Dr. Hamre, similar to what we see with SOCOM, where 
in effect you have a functional combatant command, but it also 
has some responsibility to do the man, train, and equip 
mission. Is that kind of what you were thinking when you said 
that?
    Dr. Hamre. Yes, sir. I think, as I mentioned, there are 
three circles of leadership which we have to have in the 
Department. You have to have the organizational title 10. You 
are bringing together the resources, buying things, training 
people, et cetera.
    You have to have----
    Mr. Bridenstine. But that would normally fall under one of 
the four services, the service----
    Dr. Hamre. Yes, sir, although we do have things like the 
Missile Defense Agency, which stands outside.
    Mr. Bridenstine. Okay.
    Dr. Hamre. SOCOM has unique acquisition authorities we gave 
it when we created SOCOM. So you could create special 
acquisition authorities and give it to the Space Command. I 
think they would be wise to use the fairly considerable 
infrastructure that already exists but have leadership 
capacities at the Space Command.
    Then you have to have operational responsibility. That is 
what they do every day at Space Command, but it needs to be for 
everybody. We need to make this a joint thing. And then you 
have to have strategic leadership, and that is where you need 
to have, as Admiral Ellis said, you need to have a focus in the 
Pentagon, somebody in the Pentagon.
    SOCOM has the Assistant Secretary for Special Operations. 
He has a counterpart in the Pentagon. We have to have a 
leadership counterpart in the Pentagon. I think that is what 
you are hearing from this group.
    Mr. Bridenstine. Okay. And the reason that intrigues me is 
because one of the questions that the chairman asked was, what 
does it require from Congress?
    And creating a combatant command, my understanding is the 
Secretary of Defense has the authority to disestablish a 
combatant command or establish a combatant command, which means 
it really wouldn't require anything from us other than the 
strategic guidance that Congress wants to see a unified command 
responsible for this kind of capability, which I believe is 
critically important.
    One of the things that concerns me is we have to make sure 
that we are keeping separate the idea of a combatant command 
from the man, train, and equip mission. I understand there is 
overlap. There has to be overlap.
    One of the other things that intrigued me about what you 
wrote was that--and I think, Admiral Ellis, you mentioned a 
similar thing, creating a service within the Air Force much 
like maybe the Army Air Service was to the Army, much like the 
Marine Corps is today to the Navy, where you have got different 
officer progressions, you have got different budgets, but you 
report to the same, ultimately the same service secretary.
    It doesn't seem like having a space combatant command would 
necessarily be separate from having a space service within the 
Air Force that might have a different organizational structure.
    Not going as far as to be disruptive in creating a separate 
service, but within the Air Force having a service that is 
dedicated specifically to that, is that, the two are not 
mutually exclusive. Is that correct? That is really my 
question.
    Dr. Hamre. Well, I should rely on Admiral Ellis, because he 
is the military officer here. I think that you need his 
judgment on this question more than mine.
    Mr. Bridenstine. Yes.
    Admiral Ellis. Well, as some of you may be aware, I was in 
command of the United States Strategic Command when U.S. Space 
Command was merged with it. And it was done not because space 
was unimportant, but because space was so important that it 
needed to be brought in even closer alignment with the 
warfighter.
    And, as you may recall, we completed the first nuclear 
posture review and determined that we are redefining the term 
``strategic.'' Strategic used to be and used to mean nuclear.
    Mr. Bridenstine. Right.
    Admiral Ellis. And then it was expanded to include all 
capabilities with strategic impact.
    Mr. Bridenstine. Right.
    Admiral Ellis. And they included everything, I mean, global 
strike, missile defense, that hated acronym C4ISR [command, 
control, communications, computers, intelligence, surveillance, 
and reconnaissance] and all of those things, all of which 
relied so heavily on space assets. The intent was to bring 
those more closely in alignment and use that reduction to 
improve and enhance the creation and oversight of those 
capabilities.
    But to your point, sir, if you were to create a new 
strategic command or a space command, you would be using the 
same elements that already exist, and----
    Mr. Bridenstine. Okay.
    Admiral Ellis [continuing]. And you would create a 
headquarters, because everything is operated through component 
structures as you are well aware from----
    Mr. Bridenstine. Sure.
    Admiral Ellis [continuing]. From your military background. 
But, it would also draw from the pool of space experts that 
exist within the services and departments for its manning and 
staffing.
    So I would argue that, again, I am not necessarily a big 
fan of an organizational change just to do that, because I 
really don't think that the operational piece is as much the 
issue.
    The issue, as we focused on a lot here, is procurement----
    Mr. Bridenstine. Right.
    Admiral Ellis [continuing]. Of the tools and the systems 
that our space warfighters need, and quite frankly, that is not 
the role of a combatant command. They can provide requirements, 
but they don't buy or oversee those kinds of processes. That is 
an organize, train, and equip function.
    Mr. Bridenstine. I am out of time, but I want to make this 
one last--in 2001, there was a report that came out from a 
commission on organization and management of national security 
space chaired by Donald Rumsfeld before he was Secretary of 
Defense.
    And that commission explicitly stated what you said, which 
is within the Air Force, you have got the people that generate 
the requirements. Those are the operators. And then you have 
got the people who do the purchasing. And those are not the 
same people. And that creates a disconnect.
    And in the commission report, it actually specified the NRO 
as the agency that actually does it right, where the operators 
are directly involved in the acquisition. And because of that, 
when there is an anomaly in a space system, the operators know 
the difference between an anomaly and an attack. And that is a 
very important thing.
    So I think when we think about acquisitions as it comes to 
space, we need to think about it differently than when we buy a 
tank or something else.
    So with that, Mr. Chairman, I will yield back.
    Mr. Rogers. I thank the gentleman.
    I recognize myself for the next series of questions. Mr. 
Bridenstine just made the observation about the NRO, which we 
have talked about. They do it right. I mean they do it much 
better.
    And when you look at the director of the NRO, they have 
direct report to the Secretary of Defense--or not the Secretary 
of Defense, the Under Secretary for Intelligence and then the 
DNI. And then the rest of military space is this. I mean, it 
just seems like we have got to find something comparable if we 
are going to get the sort of efficacy that we see at the NRO.
    One of the options that the GAO report offered was the 
PDSA, the Principal DOD Space Advisor. And some of the 
departments say that, you know, taking the Secretary of the Air 
Force and changing the title from executive agent to PDSA is 
the solution, and we are in the first year of that.
    My problem with that is the A, advisor. If the Secretary of 
the Air Force is an advisor, who is in charge? So tell me what 
I am missing? It seems to me that we have changed the title, 
and we have moved the deck chairs around on the ship, but we 
haven't changed the direction of the ship. Somebody tell me why 
I am wrong.
    Mr. Faga.
    Dr. Hamre. Sir, I don't think you are wrong. I mean, it 
is--again, I don't personally believe the Secretary can 
alienate his responsibility for bringing focus to what we are 
doing as a department. And it is very hard to assign that to a 
subordinate entity and have everybody else take that person 
seriously.
    Mr. Rogers. Perfect question, does the Secretary of the Air 
Force him- or herself have time to do this? Are they just going 
to delegate it to somebody?
    Dr. Hamre. You know, 30 years ago when I think it worked 
well, it was actually the Under Secretary of the Air Force 
whose job it was to run space. But that was because it was the 
Secretary's priority, and the Secretary backed that individual 
up, and everybody in the building knew that was the Secretary's 
person.
    I just don't hear that when I talk to people in the 
Department right now that there is a clarity of who is 
responsible and who is actually running things for space.
    Mr. Rogers. Should the Secretary of the Air Force be in 
charge of all DOD space?
    Dr. Hamre. Well, you have to empower the secretary to have 
the Secretary's authority. I mean the only way that works is 
when the Secretary of Defense says, that person will decide for 
me, and I haven't heard that.
    Mr. Rogers. So are you saying it should be an OSD joint 
command?
    Dr. Hamre. No, sir.
    Mr. Rogers. Or joint responsibility, rather?
    Dr. Hamre. Again, my personal view is things really 
function--you know, the Department has a balance between line 
organizations and staff organizations. Line organizations are 
those that really run things, the service chiefs. They run 
these military departments. We have some defense agencies that 
are line organizations.
    Everything in OSD, and to include the Secretary of the Air 
Force is line responsible, but only for things in the Air 
Force.
    Mr. Rogers. Right.
    Dr. Hamre. Nobody in the Navy is going to think that they 
are going to take an order from the Secretary of the Air Force.
    Mr. Rogers. So by virtue of what you are just saying, it 
should be an OSD responsibility?
    Dr. Hamre. Sir, I think it needs to be a combination of OSD 
oversight and military line responsibility and how you get 
that--you can do it through a defense agency. You can do it 
through a unified command. But you need to have somebody who is 
going to work every day, that is their job. They are not simply 
advising the Secretary in what they think that person should 
do.
    Mr. Rogers. Mr. Faga.
    Mr. Faga. I want to talk about your point about advisor by 
pointing out the secretary in her Air Force Secretary role is 
doing 90 percent of military space in terms of acquisition. 
Ninety percent of it is in the Air Force.
    The Navy program is tiny and that is about it. Army program 
is mostly support equipment. So she has already got most of it. 
Now, the significance of being the principal advisor means she 
can go direct to the SECDEF [Secretary of Defense]. In the big 
bureaucracy of the Pentagon and as senior as she is, that is a 
big deal. It is a privilege I enjoyed when I was the director 
of the NRO.
    And once in a while, someone somewhere else in the 
bureaucracy would decide to take me on. We went to the 
Secretary. They lost. That was that.
    I think she has the same opportunities, so I am not as 
ready to give up on it as others may be. We will see. We will 
see.
    It is also the case that Secretary James is pretty engaged 
and energetic. I think she is having some success. Because in 
examining all of these questions, I come back to who is in 
charge of military air or many other functions that exist 
within the Department?
    So I think she is pretty well-situated. She is the third 
ranking official in the Department, pretty well-situated.
    Mr. Rogers. Yes, I would say, first of all, this has got 
nothing to do with Secretary James particularly. It has more to 
do with the position. Now, she is an extraordinarily competent 
lady.
    This is about the Secretary of the Air Force being charged 
with this advisor role when I don't see it being given the 
decision-making authority and control of the money to implement 
decisions and then the responsibility for success.
    And also, I frankly don't see this as being the Air Force's 
primary mission. I think it has been my experience in the last 
few years that it seems that space is always going to take a 
back seat in the Air Force, and that bothers me. That may be an 
erroneous observation on my part, but it is one that concerns 
me.
    Yes, sir, Dr. Hamre.
    Dr. Hamre. Mr. Chairman--and I don't want to pick a fight 
with my two colleagues, who are far more expert on this than I 
am, but, you know, we have war plans that depend on space 
today, and they will fail if space is attacked.
    Mr. Rogers. Right.
    Dr. Hamre. Well, I don't see the Secretary of the Air Force 
solving that problem. I mean, this has got to be the Chairman 
of the Joint Chiefs that is doing a stress test of all of his 
war plans with his commanders. The Chairman of the Joint Chiefs 
does not report to the Secretary of the Air Force.
    Mr. Rogers. That is the whole reason why this has taken 
such a priority for this committee. If we are going to fight a 
war successfully, we have to have space control, and the 
attributes that it brings. And if, those are vulnerable now. It 
is just the facts. So this has to be addressed.
    All right, I will stop there and turn over to the ranking 
member for his additional questions.
    Mr. Cooper. Thank you, Mr. Chairman. This has been a very 
productive discussion. I was wondering if we need to have a 
similar hearing, though, on establishing some sort of enhanced 
cyber command?
    Dr. Hamre mentioned that perhaps our greatest vulnerability 
with satellites is through cyber. But each of these domains 
seem to be requiring greater attention and more flexibility 
from the bureaucracy so that we can live up to our full 
potential. So would you gentleman each suggest that we have a 
similar discussion regarding cyber the way we are doing space 
today?
    Admiral Ellis. Yeah, I certainly think that dialogue is 
essential, sir. I think there are some real parallels here. We 
have challenges in the cyber domain with attribution, knowing 
who actually did the act that we now discover is being, you 
know, performed against us.
    Same thing can be true in space. Is it debris when your 
satellite fails or was it a nefarious act on the part of 
another actor? And you know, there are some parallels, and I 
think that kind of oversight and understanding, but it also 
highlights a lot of the same complexities in all of this.
    If you create a standalone cyber command, what is the 
impact of that drawing expertise from the services that may be 
in short supply to stand up that command? And what are the 
implications of moving cyber both offense and defense into the 
warfighting domain of the combatant commanders, which was the 
intent?
    I mean it is as Dr. Hamre said, and as I said in my 
prepared testimony, every organizational alignment is sub-
optimized for something. You just have to decide what your 
priorities are.
    Is it what is most important or is what you do the most? 
The two are not necessarily the same. And so how you structure 
that, there are going to be some pluses and minuses in every 
structure. And I think you are hearing that from my colleagues 
here, and all of them with good inputs.
    Mr. Cooper. There is general agreement on that?
    Mr. Faga. Yeah.
    Admiral Ellis. Yeah.
    Mr. Cooper. To sell a new space command or some sort of an 
enhanced space capability to the American people and perhaps to 
our own colleagues, it is going to be very important that they 
understand the significance of satellites.
    And I noted in Mr. Faga's testimony he quoted General 
Formica as saying that ``Every company commander depends on 
space and they all take it for granted.'' You know?
    [Laughter.]
    You know, if every captain is dependent that means 
everybody who wears a uniform is dependent on it. And I know in 
the private sector I know some people who can't play golf 
without relying on a satellite.
    [Laughter.]
    But some people can't play anyway, but----
    [Laughter.]
    And it is a hard sport. But it almost makes me think of 
having a satellite-free day to enhance the awareness of the 
importance of satellites except for the fact that satellites 
are already so critical that that would devastate the economy 
in probably every nation in the world if we were to try to go 
without the timing functions and other functions that are 
hidden deep in the background of every ATM or every machine we 
depend on.
    So we are already beyond the point at which we could 
deprive ourselves voluntarily of this capability, but that is 
exactly probably what the enemy is thinking about doing to us 
in the event of an attack to bind us before we even knew we 
were attacked and then to probably disguise that as a debris 
strike and have us in a quandary for a while before we knew who 
to blame.
    Mr. Faga.
    Mr. Faga. Sir, the military plays this as a war game in 
what they call Schriever Games. I would strongly recommend that 
you get their classified briefing on some of the their recent 
games on exactly the point you have just raised, Mr. Cooper.
    You would find it revealing.
    Mr. Cooper. Finally let me end with the point that if we 
want to live up to our full military potential and do the right 
thing then, A, we would fully fund our troops, which we haven't 
been doing for about 15 years now, using devices like OCO 
[overseas contingency operations] funding and things like that 
in which we basically are asking for the Chinese and other 
international creditors to help pay our bills.
    B, we would clear up some of these bureaucratic oversight 
lines ourselves. I think the Department of Homeland Security 
reports to some 60 congressional committees or subcommittees; 
the satellite area is probably almost as confusing. And my 
colleague Mr. Bridenstine's excellent point having the operator 
and the acquirer be more the same people then they know what is 
going on.
    Well, we have, of course have this ancient divide between 
authorizing committees here and appropriators and only the 
appropriators really matter.
    [Laughter.]
    Yeah, that is right. So we have a lot of housecleaning to 
do here on this side of the dais. But I thank you, gentlemen, 
for your excellent testimony. It has been very thought-
provoking.
    Mr. Rogers. I thank the gentleman.
    The Chair now recognizes the gentleman from Colorado, Mr. 
Lamborn, for a second 5 minutes.
    Mr. Lamborn. Thank you. I would like to drill down with 
each of you on the slow acquisition process. That is one of the 
major facets of the problem we are trying to deal with. And I 
would like to mention that I recently met with a commercial 
SATCOM provider who can order a new satellite from Lockheed 
Martin and have it built and launched within 24 months.
    And yet Lockheed also provides to DOD but not on a 24-month 
schedule, and so I don't think it is Lockheed. What is it, why 
do we have such slow acquisition schedules?
    Mr. Faga.
    Mr. Faga. Because it takes a very long time to decide what 
it is we are going to build, even if the decision after a 
couple of years of effort is we are going to build exactly what 
we have already got. When a SATCOM operator goes to Lockheed, 
first of all they are saying we want to use the standard bus.
    You know, I want array of transponders that looks roughly 
like this. There isn't very much design work. There is no new 
engineering. It is really just building something pretty close 
to what you sold me last time and due in 24 months.
    It is also interesting their approach to how to maintain 
their constellation. Even at NRO we used to go through these 
great design life studies and calculations and recalculations.
    What SATCOM operators tend to say is I have got a 50-some 
satellite constellation. I have got three satellites on orbit 
that are spares, and I have got two or three of them on the 
ground ready for launch.
    Getting to launch can be really slow. It can take months. I 
might mention in that regard that I once had the opportunity to 
visit the Arianespace launch facility in Kourou in French 
Guiana. And their system was all designed from the ground up 
pretty much in the 1980s.
    The whole system is integrated. They can fly different 
sizes of their satellites off the same pad. Platform heights 
are the same. Electrical plug-ins are the same all the way up 
and down.
    With that kind of modern infrastructure, they can launch 
very quickly. We don't have that capacity in the United States.
    Mr. Lamborn. Admiral Ellis.
    Admiral Ellis. Yes, sir. It is a great question, and in 
fairness there are differences that we levy on national 
security assets. Now, you can ask a fair question and I think 
you have. How much of that should be done in the exquisite 
designs that we custom-tailor, as the Brits would say bespoke 
creation for national security purposes.
    Sometimes they are legitimate requirements. EMP 
[electromagnetic pulse] hardening against high-altitude nuclear 
detonation, encryption that requires a great deal of onboard 
computing power, protective devices for optics and things that 
aren't necessarily a part of the commercial sector. And 
sometimes there is some reason for that.
    But we also need to understand, as Mr. Faga has indicated, 
and as the chairman has noted, and I think Dr. Hamre mentioned 
as well, there is robustness and resilience in having a lot of 
nodes, a lot of perhaps less capable assets.
    And so there has--we are beginning to see a cultural change 
on the DOD side where they are understanding that that last 
ounce of weight doesn't necessarily need to go to one more 
diopter of capability. Maybe it needs to go to bolting on the 
little sensor that we all have outside our garage that turns 
the light on when somebody approaches so that we know when 
another satellite comes within--comes within our area. And, you 
know, and again, that is very simplistic, and believe me, I am 
not a satellite designer, but it shows you the kind of trades 
we need to make.
    Maybe we take a little less capability and a lot more 
resilience as we move forward and at the same time draw much 
more heavily on the capabilities that are resonant in the 
commercial sector.
    Mr. Lamborn. Like so CubeSats [miniaturized satellites], 
for instance?
    Admiral Ellis. Right.
    Dr. Hamre. Sir, a friend of mine once said, you know, a 
candle maker will never invent electricity. And so we have done 
such a brilliant job building satellites in the military we 
don't think anybody else knows how to do that.
    You know, I doubt anybody inside the military DOD 
environment would figure out how to land a rocket booster tail-
first back on the launch pad, you know? But the private sector 
did.
    Now, it just seems to me we need to break out of the 
tyranny of thinking we are the only people that know what we 
are doing. There is a heck of a lot of people in the private 
sector now building sophisticated platforms and we don't pay 
attention to what they are doing. I mean, they are launching 
satellites where 10 people can maintain that satellite.
    Mr. Lamborn. I had one provider, private outfit say that 
they could put up CubeSats, very rudimentary but effective, not 
for six figures or seven figures, but for five figures.
    Dr. Hamre. Yes.
    Mr. Lamborn. I yield back.
    Mr. Rogers. I thank the gentleman.
    The Chair now recognizes the gentleman from Nebraska, Mr. 
Ashford, for 5 minutes.
    Mr. Ashford. Thank you. It is good to see you again. 
Admiral Ellis is--still remains a legend in Omaha and thanks 
for all--certainly your service in commanding the strategic 
forces, but also in your leadership in the community in so many 
things that you did during your years there. So thank you.
    And I also thank the rest of you for your service as well. 
It--serving in Omaha is just a special----
    [Laughter.]
    Mr. Rogers. It is a hardship.
    Mr. Ashford. But it is a hardship, though.
    [Laughter.]
    Don't anybody repeat. But anyway----
    [Laughter.]
    I was going to follow on just a bit with Congressman 
Lamborn's questions, and I think it was we have had other 
discussions about other challenges and the need to--that 
perfection is the enemy of good and that we need to find a 
quicker way to get to market or get to the line with what we 
are doing. And I think Senator Lamborn pretty well asked that 
question.
    I have sort of a general question, though of Admiral Ellis, 
if I could? When you were at strategic force, when you were the 
commander at that time, it was a time of great change. I mean, 
there were things happening very quickly. There was operational 
change going on and you were--oversaw that and admirably so.
    Looking at today 10 years, 12 years later, where it's 
different challenges, different threats, but how would you 
compare the two? Over the last 12 years' times--we need the 
change we are talking about here, but what are those 
differences that make this so critical at this time?
    Admiral Ellis. Well, as we have discussed all along, Mr. 
Ashford, and you know this very well, what has unfolded over 
the last decade and a half is truly remarkable in the national 
security environment and you gentlemen and ladies live that 
every day and so you know what I am about to say.
    You know, the levels of threat that we have had to deal 
with, and not whipsawing but moving from the focus on classic 
Cold War-level adversarial relationships to the 
counterterrorism fight. It has changed the complexion and the 
context of the conversation in this Nation.
    I was telling John before we convened, my son, believe it 
or not, is in the U.S. Army, graduated from West Point of all 
things, and he has done 19 deployments to Afghanistan in his 
career. And so my point here is this Nation has been 
fundamentally redirected and now the pendulum seems to be 
coming back.
    We are seeing once again, you know, recidivist Russia and a 
China that is still trying to decide what it wants to be in 
terms of relationships as a great power.
    And so there have been, in fairness, a lot of changes that 
have unfolded in the national security environment since I was 
privileged to wear the cloths of the Nation in Omaha up until 
2004.
    And that doesn't mean that I have got all the answers, that 
anyone does, but well, I think we need to be reminded by all of 
this that you can't design a perfect solution. That we need to 
design forces and capabilities in the context of this hearing 
that can serve all dimensions of national security.
    And as I said in my prepared remarks, national security 
space is now redefined, as the ranking member indicated, to 
include the commercial elements and the economic. I mean, your 
cellphones won't work without out that timing signal.
    It is not just your, the GPS on your golf cart. It is 
fundamental banking and other services. And so this is a new 
environment. We could have seen it coming. I believe that some 
people did see it coming looking at the reports of a decade and 
a half ago of commissions and panels.
    But we are where we are, and the question is what do we do 
going forward and what kind of changes will be most effective 
and efficient in accomplishing what this Nation needs?
    Mr. Ashford. Thank you, and it seems to me that that--and 
the changes are happening so much quicker now that designing 
the system to address it, it has to be flexible enough to, to 
Dr. Hamre's point, where we find private-public partnerships 
if, for lack of a better term, to get to that solution. So I 
don't know, Doctor, would you like to comment on that? Maybe it 
is not necessary, but if you----
    Dr. Hamre. Yes, sir. The private sector cannot afford to 
take 5 years or 8 years to develop a satellite. I mean, it--
especially if you don't need to. So but we have, you know, in 
the Department, I mean, first of all, labor is a free good. 
Well, no wonder we have 700 people maintaining satellites. You 
don't pay for them.
    But the private sector has to pay for every one of them and 
they cost money and so they have as few as they can. So they 
design reliability into the satellite.
    I mean, we think about it in a different way in the private 
sector than--we have to start thinking differently. Candle 
makers have to start thinking in a different way.
    Mr. Ashford. Thank you.
    I yield back. Thanks, Mr. Chair.
    Mr. Rogers. Thank the gentleman.
    The Chair now recognizes the gentleman from Oklahoma, Mr. 
Bridenstine, for 5 minutes.
    Mr. Bridenstine. Thank you, Mr. Chairman. I just wanted to 
quickly address I think a very intelligent question from 
Ranking Member Cooper. Dr. Hamre, I think you mentioned it as 
well, which is the cyber piece.
    When you think about what satellites do, fundamentally they 
collect data. In some cases they create their own data. They 
transmit data. In some cases they process their own data 
onboard. So they are in essence just a component of the global 
network.
    And so really you cannot separate space from cyberspace. 
They are one and the same and have to be thought about in that 
way. So I just wanted to make sure that I got that out there.
    As I thought more about one of your suggestions, Dr. Hamre, 
regarding creating a U.S. Space Command, when you think about 
what the Department of Defense does in space it is my 
assessment, you know, we focus a lot on space support, which is 
launch and the satellite control network, those kind of 
activities.
    We do space enhancements where we provide data to the 
warfighter, whether it is communications or remote sensing, GPS 
signals. Those are all enhancements to the warfighter and/or 
for the Air Force for air dominance.
    And then when you take it a step further, we are just now 
getting to the point where we as a country do space defense or 
space control, which I know in this town sometimes gets a 
reaction from people.
    But ultimately, if we are going to be successful in 
fighting and winning in space we have to be able to use space 
and to deny our enemies from using space, which means we have 
to have some level of space control, which we as a nation have 
not even been thinking about until just recently.
    So standing up, in my opinion, a U.S. Space Command when we 
are only now starting to think about space control, let alone 
delivering effects from space--when I am talking about effects 
I am talking about kinetic effects from space. Space is not at 
this point a deliverer of power projection.
    That being the case, I think it might be premature to 
suggest that we need a U.S. Space Command kind of organization. 
It goes right back to what Admiral Ellis said. The challenge we 
have is in acquisition. And so I think it is important that 
when we think about that we focus on the defense space agency.
    I think Dr. Hamre, you suggested it, and Admiral Ellis. 
Going back to the commercial, I had a NASA, former NASA 
Administrator Griffin in my office not too long ago, and he 
made a, I think, a very important point, which is right along 
the lines of what you are talking about, Dr. Hamre, which is he 
said the Department of the Navy is entirely dependent on fuel 
for ships, for airplanes. We need fuel.
    But the Department of the Navy does not operate any 
drilling rigs. We don't do any refining of fuel. We actually 
buy fuel from the commercial sector.
    When it comes to space and when it comes to communications, 
when it comes to remote sensing, we are moving in a direction 
where it is a commodity provided by the private sector.
    So even the elements where we as a nation use space for 
fighting wars, space support, space enhancements, even those 
particular items are now being commercialized in ways that we 
haven't seen before, which means the Department of Defense 
needs to start focusing where it only can focus, which, of 
course, is in space control and eventually space warfare.
    With that, Mr. Chairman, I will yield back.
    Mr. Rogers. I thank the gentleman.
    I thank all the witnesses. We have been called for votes 
otherwise there would be a third round. But we have got 6 
minutes to get over to the Capitol. I can't overstate how much 
I appreciate you and your thoughtfulness, your contributions to 
this dialogue. And I can't oveemphasize this is the beginning 
of the discussion that this committee is going to be having, 
not the end. And I thank you.
    And with that we are adjourned.
    [Whereupon, at 4:29 p.m., the subcommittee was adjourned.]
      
=======================================================================

                            A P P E N D I X

                           September 27, 2016

     
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           September 27, 2016

=======================================================================

      
      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                           September 27, 2016

=======================================================================

      

      
   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           September 27, 2016

=======================================================================

      

                   QUESTIONS SUBMITTED BY MR. ROGERS

    Mr. Rogers. The NRO is a defense agency; however it is not 
statutorily defined as a combat support agency (CSA). In contrast, the 
Defense Intelligence Agency, National Security Agency, and National 
Geospatial-Intelligence Agency are all combat support agencies. As we 
prepare for a war to extend into space, is it time we think of the NRO 
as a combat support agency?
    Dr. Hamre. I am not an expert here, but I suspect that the NRO 
status was set year back when it was jointly supervised by the Defense 
Department and the Director of Central Intelligence, the predecessor to 
the Director for National Intelligence. I would need to check with 
expert friends, but I know that the NRO functions as a combat support 
agency. The NRO also has important non-defense intelligence missions, 
and I don't know if the designation would complicate any of that. From 
a defense standpoint, it would be a good thing to have them also 
included as a combat support agency. But I would need to defer to 
others to know if that would prove to be a problem for their other 
national missions.
    Mr. Rogers. GAO stated that there was a 10-year gap between the 
delivery of GPS satellites and user equipment. There have been similar 
issues with other space programs, such as Space-Based Infrared Systems 
(SBIRS) and its ground station, the Advanced Extremely High Frequency 
(AEHF) Satellite and its ground terminals. Why do these acquisition 
problems, regarding the poor synchronization of delivery of satellite, 
ground, and user terminals, keep reoccurring?
    Dr. Hamre. We have tended to split the various components of a 
space program into different program offices under different services. 
Because the GPS signal needs to be incorporated into hundreds of combat 
systems and platforms, it wasn't possible to give the task of ground 
based user equipment to the GPS program office. This tends to reflect a 
general problem we have in the Department for systems that have broad 
application that cross service lines. The only way to solve that is for 
the Office of the Secretary of Defense to do a better job insisting 
there is integration and coordination for such complex systems with 
such broad applicability within the Department.
    Mr. Rogers. Are you seeing innovation and long-term research and 
development planning in national security space programs? Why or why 
not?
    Dr. Hamre. We still have a very dynamic laboratory environment, in 
both the private sector and in government laboratories. What is lacking 
is the capacity to move innovative new ideas from laboratories into 
actual procurement programs. My personal view is that this difficulty 
in introducing innovative new ideas is the byproduct of the Packard 
Commission recommendations, which made the mechanics of acquisition 
more important than technology innovation. The Director for Defense 
Research and Engineering used to be the third most powerful position in 
the Department of Defense, and always drew exceptionally talented 
individuals with broad experience. We diminished this position with the 
Packard Commission implementation and made the mechanics of acquisition 
more important. We are now suffering from this unintended development. 
The 2017 NDAA makes a good step at fixing this, but there is much more 
that needs to be done.
    Mr. Rogers. What are your views on the Joint Interagency Combined 
Operations Center (JICSpOC)? What should the future of it be, and how 
should it compare with the Joint Space Operations Center (JSpOC)? 
Should we have two operations centers serving different functions?
    Dr. Hamre. I think it is good to have an interagency joint 
operations center, and it should be integrated with the Joint Space 
Operations Center. Often other departments or bureaus of the government 
fear being brought into DOD operations centers because they are afraid 
of the mass and momentum you see in DOD organizations. They feel they 
will be coopted by being a part of a DOD operations center. It may be 
that the JICSpOC is a compromise so that we could get interagency 
participation. The most important thing is to make sure they are 
working seamlessly together.
    Mr. Rogers. What arrangements should be in place between the DOD 
and the IC and various commercial companies regarding the U.S. 
Government's ability to task and use commercial satellites in crisis or 
wartime?
    Dr. Hamre. I would direct the Committee's attention to something 
called the Civil Reserve Air Fleet, or CRAF. CRAF has been in place for 
40 years. In essence, U.S. commercial airline companies join the CRAF 
program. If an emergency comes up, we can call on those aircraft in the 
CRAF to change their schedules and start flying missions for the 
Department of Defense. We pay them for this, of course, but more 
importantly, the U.S. Government indemnifies the aircraft when they are 
on government missions. We have a similar arrangement for cellular 
communications during a national emergency. This is the formula for 
emergency mobilization of commercial space assets. More importantly, I 
think we should start placing regular work (communications, some 
reconnaissance, etc) with commercial satellite companies in peacetime. 
We need to broaden the network we use so that potential adversaries do 
not have a limited set of government satellites to attack. We want to 
force them to attack a broad range of capabilities in a very public way 
as part of our deterrent strategy.
    Mr. Rogers. The NRO is a defense agency; however it is not 
statutorily defined as a combat support agency (CSA). In contrast, the 
Defense Intelligence Agency, National Security Agency, and National 
Geospatial-Intelligence Agency are all combat support agencies. As we 
prepare for a war to extend into space, is it time we think of the NRO 
as a combat support agency?
    Admiral Ellis. As you know, the NRO is not an intelligence agency. 
It designs, builds, and operates the reconnaissance satellites of the 
United States government, and provides satellite intelligence to 
several government agencies, particularly signals intelligence (SIGINT) 
to the NSA, imagery intelligence (IMINT) to the NGA, and measurement 
and signature intelligence (MASINT) to the DIA.
    The intelligence it provides is essential to enabling other 
agencies to successfully meet all of our national security needs, 
including combat support. While, in that sense, the NRO provides 
indirect combat support, that contribution is already fully understood 
and appreciated. Unless such a designation would significantly enhance 
the NRO's already high effectiveness, I do not see it as an urgent 
need.
    Mr. Rogers. GAO stated that there was a 10-year gap between the 
delivery of GPS satellites and user equipment. There have been similar 
issues with other space programs, such as Space-Based Infrared Systems 
(SBIRS) and its ground station, the Advanced Extremely High Frequency 
(AEHF) Satellite and its ground terminals. Why do these acquisition 
problems, regarding the poor synchronization of delivery of satellite, 
ground, and user terminals, keep reoccurring?
    Admiral Ellis. While I do not have specific current knowledge of 
each of the systems described, such delays are often a result of 
procurement processes that separate the procurement of the ground 
system from the on-orbit segment, attempt to capture efficiencies by 
using a common ground system for more than one satellite constellation, 
or, in order to reduce program costs, attempt to use existing ground 
systems for new satellites, only to find that they later have to 
replace aging ground segments in order to fully employ the new systems.
    All of the above are well-recognized challenges for which there are 
existing programmatic management, resourcing and leadership solutions.
    Mr. Rogers. Are you seeing innovation and long-term research and 
development planning in national security space programs? Why or why 
not?
    Admiral Ellis. I am seeing such efforts in both the government and 
the private sector but I am concerned that the level of investment is 
insufficient to recapture lost ground as our overall investment in 
critical national security research and development has declined in 
recent years.
    As I noted in my prepared remarks, we have been surprised by the 
rate of technological change in national security space, both in terms 
of our increased reliance on it and, even more critically, by the 
dramatic increase in the ability of potential adversaries to threaten 
it.
    Finally, while R&D investment is essential, so is the ability to 
know where the need is largest and the potential positive impact the 
greatest. We need more effective tools for system-wide analysis to 
ensure we are focusing on what is most important.
    Mr. Rogers. What are your views on the Joint Interagency Combined 
Operations Center (JICSpOC)? What should the future of it be, and how 
should it compare with the Joint Space Operations Center (JSpOC)? 
Should we have two operations centers serving different functions?
    Admiral Ellis. The answer, as with many things, is ``it depends.'' 
The stated purpose of the newly-created JICSPOC is for the military, 
Intelligence Community (IC), and commercial partners to craft concepts 
of operation and clarify who does what and how in the event of attacks 
on U.S. satellites. In my view, that describes a place where a much-
needed series of simulations and exercises can take place to enhance 
understanding of the national security space interrelationships, define 
overlapping capabilities and, most importantly, identify gaps in the 
structure, authority, and accountability. I fully support such 
immediate interagency and commercial outreach efforts; they are long 
overdue.
    On the other hand, I believe strongly in unity of command, 
authority and accountability. As I note often, collaboration is not the 
same as consensus; someone has to be in charge. This is particularly 
true in the national security space domain where challenges can 
manifest themselves quickly, sometimes at the speed of light.
    I support the experimental character of the JICSPOC but agree that 
the lessons from its tests need to move quickly to a single command 
center, appropriately staffed by all stakeholders, with a clearly 
defined chain of command. They are not lessons learned just because we 
write them down; we actually have to learn them and things need to 
change as a result.
    Mr. Rogers. Does the National Reconnaissance Office (NRO), which is 
a part of the DOD, have the same acquisition and decision-making 
challenges the military space program does? Why or why not?
    Admiral Ellis. The NRO is a much smaller and streamlined 
organization and, while the acquisition and decision-making challenges 
it faces are the same as the military space program, the speed with 
which the NRO can respond to them is much greater, the access to key 
decision makers is much easier, and the oversight regulations and 
restrictions are far fewer. All of this equates to a more effective 
procurement process, more technological agility, and clearer lines of 
responsibility and accountability.
    Mr. Rogers. Has the DOD and DNI been able to maintain oversight of 
the NRO, while still empowering the Director? Why are the NRO 
acquisitions more streamlined than the military space programs?
    Admiral Ellis. The organizational relationships among the DOD, the 
DNI and the NRO remain strong and the NRO continues to effectively and 
efficiently support both agencies. There have been some candid 
discussions about operational control of NRO satellites in the context 
of achieving consistent policies and clear, responsive decision-making 
in time of potential crisis. This has resulted in the creation of the 
JICSPOC to simulate and evaluate potential challenges and solutions.
    As in the answer to the question above, the NRO is physically a 
much smaller and streamlined organization and, while the acquisition 
and decision-making challenges it faces are the same as the military 
space program, the speed with which the NRO can respond to them is much 
greater, the access to key decision makers is much easier, and the 
oversight regulations and restrictions are far fewer. All of this 
equates to a more effective procurement process, more technological 
agility, and clearer lines of responsibility and accountability.
    Mr. Rogers. Your National Academies report talked about the need to 
clarify operational authorities for space. Can you expand on that? What 
is your view of unity of command versus unity of effort?
    Admiral Ellis. There have recently been some candid discussions 
about operational control of all national security satellites, 
including the NRO assets and those commercial communications satellites 
used for national security purposes, in the context of achieving 
consistent policies and clear, responsive decision-making in time of 
potential crisis. This is understandably, a complex technology, policy, 
and authority issue. In fairness, the discussion has arisen as a result 
of our appropriately re-defining the scope of ``national security 
space'' to include all of the space-borne resources we employ and those 
on which we rely as a nation and with our global partners. It should 
not and must not be viewed as a ``power grab'' but rather as an 
acknowledgement of newly appreciated realities of the nature, 
capabilities, and speed of potential threats.
    This has resulted in the creation of the JICSPOC to simulate and 
evaluate potential challenges and solutions and to craft concepts of 
operation and clarify who does what and how in the event of attacks on 
U.S. satellites. In my view, that describes a place where a much-needed 
series of simulations and exercises can take place to enhance 
understanding of the national security space interrelationships, define 
overlapping capabilities and, most importantly, identify gaps in the 
structure, authority, and accountability. I fully support such 
immediate interagency efforts; they are long overdue.
    I support the experimental character of the JICSPOC but agree that 
the lessons from its tests need to move quickly to a single command 
center, appropriately staffed by all stakeholders, with a clearly 
defined chain of command. They are not lessons learned just because we 
write them down; we actually have to learn them and things need to 
change as a result.
    On the other hand, I believe strongly in unity of command, 
authority and accountability. As I note often, collaboration is not the 
same as consensus; someone has to be in charge. This is particularly 
true in the national security space domain where challenges can 
manifest themselves quickly, sometimes at the speed of light.
    Mr. Rogers. You took control of U.S. Strategic Command when U.S. 
Space Command was merged with it. Can you give us your perspectives of 
that decision, why it happened, and what has changed since then?
    Admiral Ellis. The combining of United States Strategic Command and 
United States Space Command took place in the context of redefining the 
term ``strategic'' in support of national security. Rather than 
``strategic'' referring, as it had for decades, to nuclear and nuclear-
related systems, the meaning was more broadly and classically expanded 
to mean anything having global, national, and high-level influence or 
impact. Clearly, all space systems were a critical part of those 
capabilities and essential enablers to each leg of the newly-defined 
``New Triad.'' To meet the nation's defense goals in the 21st century, 
the first leg of the New Triad, the offensive strike leg, went beyond 
the Cold War triad of intercontinental ballistic missiles (ICBMs), 
submarine-launched ballistic missiles (SLBMs), and long-range nuclear-
armed bombers. ICBMs, SLBMs, bombers and nuclear weapons would, of 
course, continue to play a vital role. However, they would be just part 
of the first leg of the New Triad, integrated with new non-nuclear 
strategic capabilities that strengthened the credibility of our 
offensive deterrence. The second leg of the New Triad required 
development and deployment of both active and passive defenses--a 
recognition that offensive capabilities alone may not deter aggression 
in the new security environment of the 21st century. Active and passive 
defenses will not be perfect. However, by denying or reducing the 
effectiveness of limited attacks, defenses can discourage attacks, 
provide new capabilities for managing crises, and provide insurance 
against the failure of traditional deterrence. The new domain of 
cyberspace was also included in the new STRATCOM responsibilities. The 
third leg of the New Triad was a responsive defense infrastructure. 
Since the end of the Cold War, the U.S. defense infrastructure has 
contracted and our nuclear infrastructure has atrophied. New approaches 
to development and procurement of new capabilities were intended to 
ensure that it would not take 20 years or more to field new generations 
of weapon systems.. The effectiveness of this New Triad depended upon 
command and control, intelligence, and adaptive planning. ``Exquisite'' 
intelligence on the intentions and capabilities of adversaries can 
permit timely adjustments to the force and improve the precision with 
which it can strike and defend. The ability to plan the employment of 
the strike and defense forces flexibly and rapidly will provide the 
U.S. with a significant advantage in managing crises, deterring attack 
and conducting military operations. Much of this capability is resident 
in or enhanced by our space systems. In my view, the consolidation was 
entirely appropriate and was implemented with the full collaboration 
and cooperation of U.S. Space Command. It reflected the reality that 
the space systems are not a stand-alone capability but have significant 
value if shaped by, supportive of, and integrated with the warfighting 
combatant commands through the efforts of U.S. Strategic Command. The 
many and varied national security challenges since the combination have 
reinforced the value of the ``strategic'' systems resident in a single 
command with clear authority and accountability.
    Mr. Rogers. What arrangements should be in place between the DOD 
and the IC and various commercial companies regarding the U.S. 
Government's ability to task and use commercial satellites in crisis or 
wartime?
    Admiral Ellis. The stated purpose of the newly-created JICSPOC is 
for the military, Intelligence Community (IC), and commercial partners 
to craft concepts of operation and clarify who does what and how in the 
event of attacks on U.S. satellites. In my view, that describes a place 
where a much-needed series of simulations and exercises can take place 
to enhance understanding of the national security space 
interrelationships, define overlapping capabilities and, most 
importantly, identify gaps in the structure, authority, and 
accountability. I fully support such immediate interagency and 
commercial outreach efforts; they are long overdue.
    On the other hand, I believe strongly in unity of command, 
authority and accountability. As I note often, collaboration is not the 
same as consensus; someone has to be in charge. This is particularly 
true in the national security space domain where challenges can 
manifest themselves quickly, sometimes at the speed of light.
    I support the experimental character of the JICSPOC but agree that 
the lessons from its tests need to move quickly to a single command 
center, appropriately staffed by all stakeholders, with a clearly 
defined chain of command. They are not lessons learned just because we 
write them down; we actually have to learn them and things need to 
change as a result.
    Mr. Rogers. The NRO is a defense agency; however it is not 
statutorily defined as a combat support agency (CSA). In contrast, the 
Defense Intelligence Agency, National Security Agency, and National 
Geospatial-Intelligence Agency are all combat support agencies. As we 
prepare for a war to extend into space, is it time we think of the NRO 
as a combat support agency?
    Mr. Faga. I don' think there is a need or value to designate NRO as 
a Combat Support Agency. Unlike DIA, NSA, NGA, NRO is a combined agency 
of the DOD and DNI. It receives its tasking direction from the 
functional managers who are acting on behalf of the DNI in that 
capacity. Further, NRO is something like a Military Service in that it 
develops, acquires and operates reconnaissance satellites but it makes 
no decisions about how those assets will be deployed. Accordingly, it 
is not in a position to take direct military tasking, but responds to 
tasking, including military tasking, through already established 
mechanisms which operate through the DNI.
    Mr. Rogers. GAO stated that there was a 10-year gap between the 
delivery of GPS satellites and user equipment. There have been similar 
issues with other space programs, such as Space-Based Infrared Systems 
(SBIRS) and its ground station, the Advanced Extremely High Frequency 
(AEHF) Satellite and its ground terminals. Why do these acquisition 
problems, regarding the poor synchronization of delivery of satellite, 
ground, and user terminals, keep reoccurring?
    Mr. Faga. Commonly, space systems and their ground or user 
equipment have been treated as separate activities, with separate 
budgeting and separate development organizations. For example, the Air 
Force develops the space segment at SMC/Los Angeles and the ground 
segment or user equipment at Electronic Systems Command/Boston. SMC is 
a part of AF Space Command and ESC now renamed as a part of the AF Life 
Cycle Management Center, is a part of Materiel Command. l Budgeting for 
the two is separate and largely independent. It is easy for space and 
ground to get badly out of sync and often did.
    Mr. Rogers. Are you seeing innovation and long-term research and 
development planning in national security space programs? Why or why 
not?
    Mr. Faga. Yes, and especially so since the concern for resiliency 
has arisen in the last couple of years. This concern has forced 
consideration of changes in architectures and in individual satellites 
as well as serious consideration of the best role for commercial 
offerings.
    That said, during interviews held by the National Research Council 
team that produced NRC's report of Space Defense and Protection, space 
system contractors told us that NRO was more interested in innovations 
and AF more likely to buy more of the same. One consequence of that, 
the contractors reported, is that it is hard to develop good staff 
skills and experience if innovation isn't introduced regularly, to say 
nothing of the performance advantages typically obtained.
    Mr. Rogers. What are your views on the Joint Interagency Combined 
Operations Center (JICSpOC)? What should the future of it be, and how 
should it compare with the Joint Space Operations Center (JSpOC)? 
Should we have two operations centers serving different functions?
    Mr. Faga. I am not familiar in any detail with the JICSpOC but I 
believe the idea is that initially it will serve as a center to develop 
the systems and techniques to perform Space Situational Awareness at 
the pace necessary in a contested environment. Lt. Gen. Raymond, while 
service as Commander of 14th AF, explained that the JSpOC performs its 
tasks over periods of hours to days while future operations will have 
to do so in minutes, even seconds. The AF is learning how to do that at 
JICSpOC. Eventually, I believe that JICSpOC will take over the mission 
operationally and there will be one, vastly more capable center. It 
will take several years to achieve this.
    Mr. Rogers. Does the National Reconnaissance Office (NRO), which is 
a part of the DOD, have the same acquisition and decision-making 
challenges the military space program does? Why or why not?
    Mr. Faga. The NRO isn't simply ``a part of the DOD'' but is a joint 
activity of the DNI and the DOD. This is an important distinction 
because the NRO budget is largely controlled by the DNI as is 
operational tasking. DOD elements like NGA and NSA especially, play 
large roles in both but they do so in their capacity of support to the 
DNI. All of this means that the NRO carries out a relatively narrow 
mission, albeit important and expensive, for a limited user group with 
which it can interact intimately. Thus getting to decision is generally 
far easier than within DOD.
    An additional factor affecting NRO is that it must follow the 
Federal Acquisition Regulations but not all of the Defense supplements 
which are voluminous. This long standing practice reflects the fact 
that the experience level of contracting personnel in NRO tends to be 
higher than in DOD and the greater flexibility granted by the FAR is 
appropriate when in the hands of a highly experienced contracts 
officer.
    Mr. Rogers. Has the DOD and DNI been able to maintain oversight of 
the NRO, while still empowering the Director? Why are the NRO 
acquisitions more streamlined than the military space programs?
    Mr. Faga. Yes. While DOD and DNI oversight is far more extensive 
than in earlier decades, the Director remains empowered. This is 
largely because she can interact at very senior levels with the DOD and 
ODNI and can make her case directly and receive direction and decisions 
quickly. Excessive analysis and the time taken to perform it and slow 
decision processes are the biggest problems for a program manager at 
any level trying to maintain cost, schedule and performance.
    Mr. Rogers. Your National Academies report talked about the need to 
clarify operational authorities for space. Can you expand on that? What 
is your view of unity of command versus unity of effort?
    Mr. Faga. Our concern was the delegation of authority to take 
action which is granted by the President to operational commanders. In 
the case of space, these delegations and rules of engagement are not 
well developed largely because such actions haven't been seriously 
contemplated until recently. While I think the most likely attacks 
would be cyber, jamming or laser, it is relevant to note that a direct 
ascent attack on a low orbit satellite requires only 13 minutes. A 
decision process that takes longer than that won't get the job done.
    A related ongoing debate is whether the Commander of Stratcom 
should be empowered to direct the response of NRO satellites to attack 
or threat of it. I believe that even in time of conflict, that the DNI 
mechanisms for tasking and control of NRO assets should remain in 
place, albeit in tight coordination with the Stratcom Commander 
including appropriate participation in the JICSPOC. I lived a version 
of this problem while serving as DNRO during the First Gulf War. 
Control of certain assets was transferred from the multi-agency group 
that performed it for the DCI to DIA which wasn't trained in carrying 
it out. The result was a large drop in performance. Fortunately, there 
was time before combat operations began for DIA to get up to speed and 
perform well. Here, where timelines may be only minutes, changes from 
normal operating methods is likely to turn out badly.
    Mr. Rogers. Generally speaking, what authorities does the Director 
of the NRO have in terms of overall direction, budgeting, architecture 
development, operational direction, research and development, and 
acquisition approval? Is there any counterpart, in the military space 
program, that has the same authorities as the Director of the NRO? 
Would the military benefit from having someone with similar 
authorities?
    Mr. Faga. The DNRO has a substantial role in most of these areas 
but never complete. I'll answer individually to explain:
    -  The DNRO works for the SecDef and the DNI and exercises overall 
direction subject to their direction or approval. As a practical 
matter, direction from the SecDef and DNI is high level and the DNRO 
has substantial discretion to carry out that guidance within the NRO as 
she deems appropriate.
    -  The DNRO builds an NRO budget subject to annual guidance from 
the DNI and with a final budget approved by the DNI with concurrence 
from the DOD. The key here is that the number of people involved is 
relatively small compared to programs in DOD and the DNRO and her staff 
can interact with all of them.
    -  The DNRO is largely responsible for developing and maintaining a 
national reconnaissance architecture subject to the concurrence of the 
DNI and the DOD. She has considerable discretion here but not total 
control.
    -  The DNRO has little authority for operational control. The NRO 
launches and provides the ground station operating crew, maintains 
health of the satellite, etc. but all tasking comes through DNI 
mechanisms. Other than for engineering test, the DNRO issues no 
direction on the operational use of the NRO satellites.
    -  The Director has great discretion in the application of R&D 
funds. Typical of most companies, generally a % of the program is 
devoted to R&D with almost total discretion in how the funds are 
applied.
    -  Acquisition approval comes from the DNI with DOD concurrence (or 
the inverse for MIP funded activities). Once granted, the Director has 
substantial discretion in management of the program to its completion.
    The person closest in authorities to the DNRO is the Commander, AF 
Space Command who has acquisition and also has operational authorities 
which the DNRO does not. He has a budgeting role but not one as strong 
as the DNRO. The Secretary of the Air Force has budgeting authority for 
about 90% of military space so these two executives have very 
significant roles.
    Regarding establishing a ``DNRO-like'' person in DOD, I would note 
that, as described above, the DNRO has a powerful position but draws 
authorities and approvals from a range of seniors. The benefit she has 
is the ability to interact with relatively few people at senior levels 
and considerable discretion inside the NRO which is not typical in DOD. 
This speaks to my point in oral testimony about empowering the Program 
Manager where, in this case, the Program Manager is the DNRO. I think 
that is more important than a single person inserted in DOD somewhere 
to replicate the DNRO.
    Mr. Rogers. When you were the Director of the NRO, you also served 
as an Assistant Secretary of the Air Force. What are your thoughts on 
the importance of that the connection with the military and 
intelligence programs? What is the role of Principal DOD Space Advisor 
with regard to the NRO?
    Mr. Faga. It was helpful as it gave me a role within the AF that 
was useful, especially as the NRO hadn't been declassified and wasn't 
acknowledged. Perhaps more important was that I was a Presidential 
appointee, confirmed by the Senate. That increased standing in the 
Pentagon substantially. That said, I played a role in military space 
and NRO but didn't serve as a coordinator between them to any great 
extent.
    I think the current arrangement, with the DNRO serving only in that 
capacity is the better arrangement as it is certainly a full time job.
    I don't know the role of the PDSA in any detail, but believe that 
the role with regard to NRO is modest, one of achieving coordination 
and certainly cooperation but not direction.
    Mr. Rogers. What arrangements should be in place between the DOD 
and the IC and various commercial companies regarding the U.S. 
Government's ability to task and use commercial satellites in crisis or 
wartime?
    Mr. Faga. The DOD and IC do use commercial space companies 
extensively in peace, crisis and war. As long ago as the first Gulf 
War, at least half of satellite communications into theatre was 
provided by commercial providers. In more recent times, commercial 
imagery has also been used extensively in crisis and wartime 
situations.
    I think that one thrust of your question is what can be expected of 
commercial providers in crisis and war. This is largely a matter of the 
contractual arrangement between the government and the provider. When I 
joined several company boards after service in government and a 
nonprofit, I quickly learned that risk is always monetized. So, if 
commercial service in conflict brings extra risk, it can be monetized 
through contract payments, provision of extra services and capabilities 
in the satellites, agreement by the government to provide certain 
protections, insurance and other means. The key is to anticipate and 
work out the expectations and contractual mechanisms in advance.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. COOPER
    Mr. Cooper. This committee has focused on acquisition reform over 
the past two national defense authorization bills. Generally, how is 
acquisition within the space enterprise unique from the rest of DOD 
acquisition? More specifically, what areas of space acquisition require 
the most attention and are likely to require reforms specific to them?
    Dr. Hamre. Acquisition of space assets is not inherently different. 
But there are unique qualities to space that do impact acquisition. 
These are exceptionally expensive assets and we buy them in very 
limited numbers. This is more analogous to buying aircraft carriers 
than trucks. The long lead time and high expense requires a different 
oversight structure. But space acquisition is not inherently different 
from normal government acquisition. The broader question is could we 
use more commercial modalities to get space capabilities. Currently we 
focus on government-only spacecraft and these become exceptionally 
expensive and have very long development cycles. The commercial sector 
has much shorter cycles, which means cheaper satellites that are 
replaced more often as advanced technology becomes available. I believe 
we need to look at very different models for buying space-based 
capabilities.
    Mr. Cooper. You noted that existing and emerging commercial 
capabilities represent opportunities for improving capacity and 
resilience, and that commercial space operations are particularly 
efficient. Could you elaborate on how using commercial capabilities, 
for example for imagery or space situational awareness, will help 
improve national security capability and capacity? And what lessons on 
efficiency can be learned and applied to enhance national security 
space operations?
    Dr. Hamre. There are a new generation of commercial satellite 
companies that are producing lower fidelity systems in great number. 
These are sometimes called cube-sats or micro-sats. The resolution will 
always be inferior because these are very small satellites (5 inch 
square and 20 inches long, for example) compared to current 
reconnaissance satellites that are enormous. So the images from these 
lower-fidelity satellites will not be useful for important intelligence 
missions. But they could be perfectly adequate for many military 
applications. The advantage of these small satellite constellations is 
that they are constantly improving the technology on the satellite, and 
can introduce these improvements every 6 months. Giant reconnaissance 
satellites freeze technology (remarkable technology, to be sure) for a 
15 year period. Micro-sats are no substitute for our sophisticated 
satellites, but they are a very important potential complement, and 
could take on a much larger range of missions, especially for the 
Defense Department.
    Mr. Cooper. This committee has focused on acquisition reform over 
the past two national defense authorization bills. Generally, how is 
acquisition within the space enterprise unique from the rest of DOD 
acquisition? More specifically, what areas of space acquisition require 
the most attention and are likely to require reforms specific to them?
    Admiral Ellis. There are many similarities between procurement of 
space systems and the acquisition of other DOD capabilities. There are 
also reasons why some of the policies, regulations and oversight are 
applicable to both.
    There are some differences that should be considered, however. The 
first is the capability focus of our space systems. Past policies have 
focused on designing and building ``exquisite'' space systems where 
every ounce of capability and reliability has been designed in and 
little attention has been paid to resilience or robustness. This must 
change.
    A second area is the long lifetime for which our on-orbit systems 
are designed. This has led to a post-launch technological status quo. 
Perhaps consideration of lower cost and shorter lifetimes is 
appropriate to allow technological refreshment at a faster rate. A 
second lifetime consideration could explore the possibility of modular 
on-orbit upgrades and refueling to provide the best of both worlds.
    A third area for consideration is consistency of purpose and the 
sharing of best acquisition practices across the DOD, IC and commercial 
stove-pipes. There is an opportunity, without giving all space 
acquisition authority to a single entity, to more effectively share 
among all those contributing so much to national security space. Much 
good work is being done but it is not widely shared and its broader use 
has not been widely encouraged.
    Mr. Cooper. This committee has focused on acquisition reform over 
the past two national defense authorization bills. Generally, how is 
acquisition within the space enterprise unique from the rest of DOD 
acquisition? More specifically, what areas of space acquisition require 
the most attention and are likely to require reforms specific to them?
    Mr. Faga. There are many similarities but the space enterprise 
tends to change at a higher pace. Planes, ships and tanks tend to have 
service lives of 20-40 years and more. While individual satellites may 
typically last 10-15 years, new requirements and technology tend to 
drive revised designs every few years. To do this well, all of the 
processes involved need to move faster than they do. Taking several 
years just to get to a decision of what to buy is way too long.
    Space systems are largely information systems and much closer to 
terrestrial IT than to planes, ships and tanks. We need to recognize 
that most systems won't be built in large numbers or for long periods 
of time so don't need all of the ``ilities'' treatments that major 
defense systems receive. Like terrestrial IT, we need to think of 
services more than systems and provided by commercial providers under 
service contracts or with government-purchased satellites as 
appropriate. In either case, we need to think about the service we are 
obtaining rather than the platform and contract model we are using.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LAMBORN
    Mr. Lamborn. Admiral Ellis' testimony was particularly strong in 
making the point that strategy must come first. What should our 
strategic vision for national security space be, and how can we ensure 
our strategy will function across the spectrum of conflict?
    Dr. Hamre. Our strategic vision for space must be integrated with 
our broad strategic vision for national security. Space needs to be 
able to make its contribution to our military success on earth. We must 
take steps to insure that we can reliably function through the spectrum 
of conflict conditions to support terrestrial military operations. 
Space will continue to be a critical capability, but we need 
reliability and resilience. Adversaries are now threatening our assured 
use of space, so we need to adapt our plans to insure that we can 
accomplish all our missions successfully. In some instances, this will 
place less dependence on space. It also means we need to change the way 
we approach space from a public standpoint. We are now able to draw on 
a much richer range of commercial assets, to include foreign commercial 
assets, for critical space functions. Drawing on a much wider range of 
assets will enhance deterrence and increase dissuasion of potential 
hostile actions.
    Mr. Lamborn. Please describe the importance of budget authority in 
DOD, and compare the budget authority that the Commander of Air Force 
Space Command has, in comparison to the Director of the NRO.
    Dr. Hamre. I need to make sure I properly understand this question. 
The Commander of the Air Force Space Command has budget authority for 
some things, such as operating his ground-based installations. But I 
assume that you are talking about the ability to buy satellites. I 
think there are three authorities that need to be balanced--the 
authority to establish requirements, the authority to buy things, and 
the authority to operate things. The NRO has the authority to buy 
things and operate things. The USAF Space Command largely has authority 
to set requirements and to operate things, but not to buy things. There 
is no easy answer on how to balance these three authorities. 
Organizations that establish requirements but don't have accountability 
for buying or operating things tends to lead to gold-plating of 
requirements and systems, for example. I would need to map out all the 
various authorities in order to properly answer your question.
    Mr. Lamborn. A review of the budget documents shows that the 
unclassified space RDT&E budgets are at a 30-year low. Why do you think 
that is?
    Dr. Hamre. I would need to study this carefully, and I have not. So 
my initial response is that we no longer need to spend so much money on 
unclassified space RDT&E because we now have such a robust private 
sector. 40 years ago, the Federal Government needed to invest in this, 
where today it can buy it from the private sector. And DOD continues to 
make significant investments in classified space RDT&E. But I do 
suspect that overall R&D spending on space by the federal government is 
down compared to years past. The more important question is how can we 
tap into the vitality I see in the private sector on space? That is the 
challenge of today.
    Mr. Lamborn. What should the future mission of the JICSpOC be? How 
does that compare to the current and future mission of the JSPOC?
    Dr. Hamre. Again, I don't know this to be the case, but I suspect 
that the JICSpOC is separate from JSPOC because non-defense agencies 
are wary of being sucked into a DOD-dominated environment. It is easier 
to get coordination if they are given a somewhat autonomous space 
separate from DOD. But I would need to study this problem more in order 
to give you a better answer.
    Mr. Lamborn. Admiral Ellis' testimony was particularly strong in 
making the point that strategy must come first. What should our 
strategic vision for national security space be, and how can we ensure 
our strategy will function across the spectrum of conflict?
    Admiral Ellis. As noted in the National Academy report provided to 
the Subcommittee, given the country's broad dependence on space for 
both civil and military activities, U.S. interests would appear to be 
served by a strategy focused on creating an environment in which there 
exist no means to unilaterally attack U.S. space systems without 
attribution and effective counters, or a future where space systems 
offer sufficient resiliency that such unilateral attacks are not 
effective in negating a space capability. However, given the dependence 
of potential adversaries on space systems in time of conflict, the 
interests of the United States may also be served by having the means 
to disable adversary space systems in time of crisis or conflict. 
Moreover, a number of means to attack space systems have been 
demonstrated or are postulated, and failure to protect against the use 
of such systems would put the United States at a significant 
disadvantage. While the United States may decide what space future it 
prefers, the United States is not the sole determiner of that future. 
U.S. actions will be constrained by what our potential adversaries--and 
even our friends--decide to do. Furthermore, frenetic innovation in the 
commercial space sector has the potential to be the main driver of 
change in the space domain. Put somewhat differently, the United States 
faces a short-term operational problem that needs to be addressed with 
urgency and it also faces a more complex, long-term strategic problem. 
In the short term, what should the United States do to counter the 
emerging, multi-faceted threat to U.S. national security space assets? 
Potential measures include hardening systems against known and 
predicted means of attack; establishing capabilities to mitigate the 
effects of successful attacks on U.S. space systems; expanding systems 
to detect attacks in progress, including confidently distinguishing 
attacks from other sources of failures; and reacting to them, 
implementing political-military means designed to deter attacks, and 
developing and deploying retaliatory systems and other means to hold 
adversaries' assets at risk. This is not just a matter of developing 
hardware; organizations, policies, doctrine, and operational concepts 
need to be modified or created in parallel. Policy issues include 
declaratory policies with regard to attacks on the national security 
space architecture, including commercial space systems that provide 
national security functions, as well as appropriate responses to 
attacks on significant commercial systems. Addressing this problem 
requires a clear understanding of the threat and the diverging time 
lines associated both with threat evolution and timely deployment of 
solutions.
    Mr. Lamborn. Your recent National Academies report talked about the 
need to clarify operational authorities for space. Can you please 
expand on that? What is your view of unity of command versus unity of 
effort? Who--if anyone--is responsible for disseminating information 
regarding warning and/or insight into adversarial operations across the 
defense and intelligence communities?
    Admiral Ellis. There have recently been some candid discussions 
about operational control of all national security satellites, 
including the NRO assets and those commercial communications satellites 
used for national security purposes, in the context of achieving 
consistent policies and clear, responsive decision-making in time of 
potential crisis. This is understandably, a complex technology, policy, 
and authority issue. In fairness, the discussion has arisen as a result 
of our appropriately re-defining the scope of ``national security 
space'' to include all of the space-borne resources we employ and those 
on which we rely as a nation and with our global partners. It should 
not and must not be viewed as a ``power grab'' but rather as an 
acknowledgement of newly appreciated realities of the nature, 
capabilities, and speed of potential threats.
    This has resulted in the creation of the JICSPOC to simulate and 
evaluate potential challenges and solutions and to craft concepts of 
operation and clarify who does what and how in the event of attacks on 
U.S. satellites. In my view, that describes a place where a much-needed 
series of simulations and exercises can take place to enhance 
understanding of the national security space interrelationships, define 
overlapping capabilities and, most importantly, identify gaps in the 
structure, authority, and accountability. I fully support such 
immediate interagency efforts; they are long overdue.
    On the other hand, I believe strongly in unity of command, 
authority and accountability. As I note often, collaboration is not the 
same as consensus; someone has to be in charge. This is particularly 
true in the national security space domain where challenges can 
manifest themselves quickly, sometimes at the speed of light. The 
precise organizational and authority structure should be left to the 
agencies involved and not imposed by fiat or decree from external 
entities.
    I support the experimental character of the JICSPOC but agree that 
the lessons from its tests need to move quickly to a single command 
center, appropriately staffed by all stakeholders, with a clearly 
defined chain of command. They are not lessons learned just because we 
write them down; we actually have to learn them and things need to 
change as a result.
    Mr. Lamborn. Please describe the importance of budget authority in 
DOD, and compare the budget authority that the Commander of Air Force 
Space Command has, in comparison to the Director of the NRO.
    Admiral Ellis. As the Subcommittee is well aware, budget authority 
is the final arbiter of influence in the DOD, just as it is in any 
organization. From a procurement perspective, Air Force Space Command 
executes much of its authority through the Space and Missile Systems 
Center (SMC) at Los Angeles AFB, California, which designs and acquires 
all Air Force and most Department of Defense space systems. As with all 
DOD procurement, these processes are subject to procurement regulations 
and policies that may not be specifically designed to support the 
unique character of the space enterprise.
    I cannot compare the NRO's budget authority but sense that it is 
adequate to their needs and that they operate under a much more 
streamlined and tightly-coupled process.
    Mr. Lamborn. A review of the budget documents shows that the 
unclassified space RDT&E budgets are at a 30-year low. Why do you think 
that is?
    Admiral Ellis. In my opinion, the decline in Federal space R&D 
spending is simply a result of the budget pressures on discretionary 
spending forcing choices between development and procurement.
    From a private sector perspective, many worthy research projects 
are risky, with uncertain prospects for success or future utility, and 
may require a long-term commitment of resources and infrastructure. 
These qualities of the science enterprise lead to underinvestment by 
private industry, which in general is more focused on lower-risk 
research and product development with the promise of short-term 
results. This is why industry spends 80 cents of every R&D dollar on 
development, and only 20 cents on basic and applied research (for 
civilian science agencies, the ratio is reversed).
    Mr. Lamborn. What should the future mission of the JICSpOC be? How 
does that compare to the current and future mission of the JSPOC?
    Admiral Ellis. The stated purpose of the newly-created JICSPOC is 
for the military, Intelligence Community (IC), and commercial partners 
to craft concepts of operation and clarify who does what and how in the 
event of attacks on U.S. satellites. In my view, that describes a place 
where a much-needed series of simulations and exercises can take place 
to enhance understanding of the national security space 
interrelationships, define overlapping capabilities and, most 
importantly, identify gaps in the structure, authority, and 
accountability. I fully support such immediate interagency and 
commercial outreach efforts; they are long overdue.
    On the other hand, I believe strongly in unity of command, 
authority and accountability. As I note often, collaboration is not the 
same as consensus; someone has to be in charge. This is particularly 
true in the national security space domain where challenges can 
manifest themselves quickly, sometimes at the speed of light.
    I support the experimental character of the JICSPOC but agree that 
the lessons from its tests need to move quickly to a single command 
center, appropriately staffed by all stakeholders, with a clearly 
defined chain of command. They are not lessons learned just because we 
write them down; we actually have to learn them and things need to 
change as a result.
    Mr. Lamborn. Admiral Ellis' testimony was particularly strong in 
making the point that strategy must come first. What should our 
strategic vision for national security space be, and how can we ensure 
our strategy will function across the spectrum of conflict?
    Mr. Faga. Strategy is the first and topmost of the steps leading to 
actions. It sets the overall goals and plans. The trouble with most 
strategies is that they are aspirational, not realistic and fail to 
become true guides for action. The strategy challenge for space now is 
the need to shift from information satellites living in a benign 
environment to systems that have to survive in conflict. The strategy 
begins with laying out what the expectations of commanders are as well 
as an understanding from providers of what can realistically be 
achieved. Strategies that simply state, ``systems will be made 
resilient'' are not useful statements.
    Mr. Lamborn. Your recent National Academies report talked about the 
need to clarify operational authorities for space. Can you please 
expand on that? What is your view of unity of command versus unity of 
effort? Who--if anyone--is responsible for disseminating information 
regarding warning and/or insight into adversarial operations across the 
defense and intelligence communities?
    Mr. Faga. In partial response, please see my answer to question 21. 
Unity of command vs unity of effort in this context refers to whether 
DOD controls NRO satellites, at least for purposes of protection, in 
time of crisis or war. I recommend the unity of effort approach where 
the NRO continues to respond to DNI direction in the use of its 
satellites. One of the lessons to me while serving as DNRO during the 
first Gulf War was that DOD is not the only user of satellite 
reconnaissance during the fight. The NSC, State and others had pressing 
needs which were largely adjudicated by the DCI and now the DNI. Even 
regarding protection, I can envision a situation where DOD says you 
need to move or you'll be killed in a few minutes, and the DNI saying 
the info being gained at this moment is so important that it's worth 
that price. Moreover, I think this is an issue debated over the least 
likely threat-direct attack. Cyber, jamming and laser threats are far 
more likely in my estimation.
    Regarding the dissemination of warning and insight, both the IC and 
DOD communities do this. Typically, the IC is collecting longer term 
and more detailed information like ``what are the specific capabilities 
of this threat'' while the DOD is providing warning near the moment of 
attack.
    Mr. Lamborn. Please describe the importance of budget authority in 
DOD, and compare the budget authority that the Commander of Air Force 
Space Command has, in comparison to the Director of the NRO.
    Mr. Faga. I believe that their budget authority is similar but 
their ability to influence what budget authority they receive is quite 
different. Regarding similar authority, both must receive their budgets 
pursuant to a budget submission by the President and Congressional 
Authorization and Appropriation. Both receive funds subject to the 
limitations of the Program Elements used and to reprogramming rules and 
thresholds. However, the reporting chain of the DNRO is far shorter and 
she has the ability to directly engage the Principals who decide her 
budget. Both the DNRO and Commander AFSPC are subject to the effects of 
budget drills that suddenly move significant money from their program 
to another. However, the entire National Intel Program is 10% of the 
size of the Defense budget and the likelihood of an event of which 
affects the NRO of which the DNRO is unaware, is far smaller than for 
the Commander AFSPC.
    Mr. Lamborn. A review of the budget documents shows that the 
unclassified space RDT&E budgets are at a 30-year low. Why do you think 
that is?
    Mr. Faga. I think there are two elements to this decline: reduced 
spending for research on new technologies or systems and reduced 
spending on new starts. Regarding the first, the temptation in tight 
budget times is to push off the future to maintain present capability. 
Similarly, the desire for continued service from legacy systems tends 
to push out spending for new starts. Existing systems have many 
supporters among current users; new ideas have few supporters and are 
consequently very hard to get funded in the President's Budget.
    Congressional interest in this matter is particularly important, 
because it is often the Congress that pushes the Administration to take 
on new things. In intelligence, it is important to keep developing new 
capabilities that adversaries will be unaware of for some period of 
time. Those are the most valuable capabilities.
    Mr. Lamborn. What should the future mission of the JICSpOC be? How 
does that compare to the current and future mission of the JSPOC?
    Mr. Faga. The JICSpOC should become the ops center for the era we 
are entering where space systems are subject to interference or attack. 
I see it subsuming and replacing the JSPOC. The JICSpOC is learning how 
to operate on timelines measured in minutes while the JSPOC operates on 
timelines measured in hours to days. Lt. Gen. Raymond once described 
the JSPOC as largely a space cataloging operation. The JICSpOC will 
need to become a combat operations center.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. COFFMAN
    Mr. Coffman. The current acquisition approach can take 10-plus 
years to deliver a new capability. This approach cannot keep pace with 
the evolving threat and advances in technology. What changes to the 
acquisition process will need to happen in order to reduce the time to 
deliver new capability to less than 5 years?
    Dr. Hamre. This problem is not unique to space. In general, defense 
acquisition has evolved to take long times. The barrier to get new 
programs is so high that the Services often load up the requirements 
for the program, thinking that it is their only chance. So we postulate 
capabilities that technology cannot currently provide for some systems 
and develop that technology along the way. I personally would favor an 
acquisition system that allows incremental advances over time. We have 
done that in the past very successfully, for example with the F-16. But 
we have not done that with space procurement. This is largely because 
the number of units we buy is very small and over a long period of 
time. So we tend to load them up with capabilities that are very 
advanced and do have technical uncertainty. This is one of the reasons 
why I favor relying much more on commercially-provided capability, 
which is expanding.
    Mr. Coffman. Where are the key areas that you see commercial 
capability most effectively augmenting the national security space 
mission, both from a capability and a space resiliency perspective?
    Dr. Hamre. Right now I think the strongest area is in 
communications capabilities. But I think we will increasingly see much 
stronger commercial capabilities for reconnaissance and surveillance. 
The fidelity will lag our government satellites, but commercial 
fidelity is getting very good. For precision navigation, it is more a 
case of using the positioning signals from satellites of other 
countries. We are seeing growing commercial capabilities for space 
launch, and that will continue. All together, these commercial 
developments give us the promise of more redundancy and 
reconstitutability. But we need to change how we think about buying 
space capabilities if we are going to take advantage of these trends.
    Mr. Coffman. The NRO has seen some real success through the 
application of autonomy and analytics capabilities into their 
architecture--driving down costs and improving the intelligence value 
and responsiveness of their enterprise. What other space-based missions 
(beyond intelligence), could benefit from the application of advanced 
analytic capabilities?
    Dr. Hamre. I must plead insufficient knowledge to properly answer 
your question. I don't know enough about how the NRO has accomplished 
this in order to postulate other options we might pursue.
    Mr. Coffman. Each space protection program is contained within its 
own Special Access Program (SAP) with a limited number of billets, 
creating knowledge silos. How should DOD and the Intelligence Community 
balance security concerns with their ability to leverage technology and 
capabilities across the government and industry?
    Dr. Hamre. You have hit on a key problem. By definition, very few 
people know about the details of SAP programs, and for good reason. But 
this also means we never can build on the advances of one program to 
make another SAP program more effective and less expensive. The 
mechanisms of coordination for SAP programs are largely administrative, 
rather than programmatic. It would be an interesting experiment to 
create a small cell reporting directly to the Deputy Secretary of 
Defense, charged with the goal of seeing where the program details of 
one SAP program might be usefully applied to another SAP program.
    Mr. Coffman. The current acquisition approach can take 10-plus 
years to deliver a new capability. This approach cannot keep pace with 
the evolving threat and advances in technology. What changes to the 
acquisition process will need to happen in order to reduce the time to 
deliver new capability to less than 5 years?
    Admiral Ellis. There are some dramatically different approaches 
that should be considered as we address the rapid technological change 
and growing threats that confront us.
    The first is the capability focus of our space systems. Past 
policies have focused on designing and building ``exquisite'' space 
systems where every ounce of capability and reliability has been 
designed in and little attention has been paid to resilience or 
robustness. This must change.
    A second area is the long lifetime for which our on-orbit systems 
are designed. This has led to a post-launch technological status quo. 
Perhaps consideration of lower cost and shorter lifetimes is 
appropriate to allow technological refreshment at a faster rate. A 
second lifetime consideration could explore the possibility of modular 
on-orbit upgrades and refueling to provide the best of both worlds.
    A third area for consideration is consistency of purpose and the 
sharing of best acquisition practices across the DOD, IC and commercial 
stove-pipes. There is an opportunity, without giving all space 
acquisition authority to a single entity, to more effectively share 
insights among all those contributing so much to national security 
space. Much good work is being done but it is not widely shared and its 
broader use has not been widely encouraged. Here, a single DOD-level 
Undersecretary for Space would have a key role.
    Mr. Coffman. Where are the key areas that you see commercial 
capability most effectively augmenting the national security space 
mission, both from a capability and a space resiliency perspective?
    Admiral Ellis. Commercial contributors are already making key 
contributions across the full spectrum of national security space. In 
addition to the long-standing contributions to our multi-frequency, 
space-borne communications architecture, we now see opportunities 
emerging in commercial imagery, earth-sensing using other sensors, and, 
of course, the developing launch systems. All of these can bring 
enhanced capability, multi-nodal redundancy, and enhanced resiliency.
    A key element of our ability to capitalize on commercial space is 
resisting the temptation to over-control and over-regulate. We are 
still not buying commercial SATCOM capacity as efficiently as we might 
and spectrum control and allocation processes are highly bureaucratic. 
We cannot approach the commercial sector with the same slow processes 
and restrictive regulation and expect to get a different outcome.
    Mr. Coffman. The NRO has seen some real success through the 
application of autonomy and analytics capabilities into their 
architecture--driving down costs and improving the intelligence value 
and responsiveness of their enterprise. What other space-based missions 
(beyond intelligence), could benefit from the application of advanced 
analytic capabilities?
    Admiral Ellis. As I described above, while R&D investment is 
essential, so is the ability to know where the need is largest and the 
potential positive impact the greatest. This is a perfect place for 
real, even-handed, and dispassionate analytical capabilities. We need 
more effective tools for system-wide analysis to ensure we are focusing 
on what is most important. While allocation of funds is sometimes a 
valuable metric, it cannot define where resources can be most 
effectively employed. The ``critical infrastructure in space'' that we 
have created must be carefully analyzed to ensure that we really 
understand the capability and resiliency challenges confronting us and 
that we are not making decisions on the basis of assumptions that are 
no longer valid as a result of dramatic changes in the technology, 
organizational structures, or the operating environment.
    Mr. Coffman. Each space protection program is contained within its 
own Special Access Program (SAP) with a limited number of billets, 
creating knowledge silos. How should DOD and the Intelligence Community 
balance security concerns with their ability to leverage technology and 
capabilities across the government and industry?
    Admiral Ellis. Unfortunately, the plethora of national security 
leaks and revelations over the last five years, from Snowden to 
WikiLeaks, has brought reconsideration of the movement toward more 
information and intelligence sharing that began in the days after 9/11. 
There are legitimate concerns, as we see Top Secret documents appearing 
in the public domain, that higher levels of classification and limited 
access are key elements in preserving the classified character of our 
most precious technologies.
    In my opinion, retaining the balance inferred in the question is 
appropriate but is getting more difficult each day. One technique is to 
carefully parse programs into distinct sub-elements, including basic 
technology, system integration and operational concepts, that can be 
appropriately shared but do not reveal the entirety of the program and 
its impact.
    A second approach is to allow DOD to develop and provide ``black 
box'' capabilities to civilian or non-DOD space programs that are bolt-
on, tamper-proof and add capabilities without revealing the classified 
technologies or operational concepts. If we are to get full use of all 
space assets, effectively integrate them into a security network, and 
create a more resilient system across the DOD, IC, and commercial 
sectors, everyone must be included and contribute.
    Mr. Coffman. The current acquisition approach can take 10-plus 
years to deliver a new capability. This approach cannot keep pace with 
the evolving threat and advances in technology. What changes to the 
acquisition process will need to happen in order to reduce the time to 
deliver new capability to less than 5 years?
    Mr. Faga. As a baseline, I noted in my testimony that several 
decades ago the standard planning number for a new satellite 
acquisition was 42 months. This number assumed that the technology was 
ready and development could begin. This target was usually met. 
Commercial satellite procurements today usually meet this timeline or 
do better. Acquisitions in 24-36 months are common.
    Today's military and IC satellite systems are more complex but 
available technology is also more mature. The big change is the amount 
of time deciding and agreeing on what to build as well as the 
contracting process before real development work begins. This can 
easily consume 3 to 5 years and partially explains the 5 to 10 year gap 
that you point out.
    Another delaying factor is the annual budget process that allows 
everyone not in favor of the program to have an annual opportunity to 
delay, underfund or even cancel it. These budget drills often put 
programs into an undesirable or even unworkable funding profile that 
further delays development and adds greatly to total cost. As these 
processes are much less at work in SAP programs, they tend to do better 
in terms of cost and schedule.
    One approach is to reverse the impediments described above. Another 
is to do more buying of a service or a turn-key system where the 
government specifies what it wants at the beginning and takes delivery 
at the end. So, in the case of commercial imagery, NGA buys imagery 
from Digital Globe generally independent of which of several satellites 
does the collection. However, the government could also turn to 
satellite builders for complete satellites delivered on orbit. 
Commercial imagery and satcom companies generally use this approach.
    An approach resembling this was used in the 90s and was called 
Total System Procurement Responsibility (TSPR) which largely failed. 
However, it didn't fail because the concept was flawed but because it's 
implementation was flawed. The approach still requires government 
involvement but government managers thought it meant ``hands off.'' 
There needs to be customer involvement throughout but it is largely not 
directive in nature, it serves to help with modification of 
requirements, choosing among alternatives when problems arise and other 
major issues. However, it is not involved in the minutia of the 
problem.
    Mr. Coffman. Where are the key areas that you see commercial 
capability most effectively augmenting the national security space 
mission, both from a capability and a space resiliency perspective?
    Mr. Faga. Commercial satcom has long been a major supplier of 
service to national security space. The DOD CIO has recently estimated 
that 40% of DOD satcom is commercial. I recall that during the first 
Gulf War it was estimated at 60%. Nonetheless, I believe that there 
will likely always be a need for specialized, highly resilient satcom 
systems built for and operated by DOD. However, in many cases it would 
be possible to purchase the satellite under a commercial-like contract 
where the government specifies at the beginning and takes over the 
system on orbit. This can work for complicated satellites but only for 
those that can be fully specified at the beginning of the program. This 
is not practical where there is substantial development and non-
recurring engineering involved.
    The national space community has used commercial satellite imagery 
for over 20 years with good success. As offerings increase, this usage 
will surely increase as well. As a result, the NRO and NGA have set up 
a special combined office to deal with the blending of commercial and 
NRO systems that is clearly coming.
    It is possible that commercial PNT, weather and space situational 
awareness offerings will be available in the near future.
    A particularly attractive approach to use of commercial satellites 
is for hosted payloads that are no acknowledged. The most valuable 
capability is one not known to others. Such a secret is hard to keep 
today but SAP programs succeed at doing so routinely.
    Mr. Coffman. The NRO has seen some real success through the 
application of autonomy and analytics capabilities into their 
architecture--driving down costs and improving the intelligence value 
and responsiveness of their enterprise. What other space-based missions 
(beyond intelligence), could benefit from the application of advanced 
analytic capabilities?
    Mr. Faga. I am not familiar with these efforts in any detail. I 
know that the NRO has been using autonomous means to quickly review 
data in order to sort from a large volume of data to smaller amounts 
that analysts can quickly exploit. Other IC agencies are also doing 
this on other forms of data. Some of these efforts seek to exploit 
different sources of data at the machine level and do valuable sorting 
and combining of data before presentation to the analyst so that the 
material that is presented is more comprehensive and valuable. It is 
estimated that analysts spend about 60% of their time searching for and 
organizing data and only 40% analyzing. Clearly, managers want to 
reduce that 60% substantially and increase the time for value-added 
work.
    Another application of analytics becoming important in the 
development of space systems and others, it model based systems 
engineering. In this technique, a computer model of the entire system 
is developed which provides greater insight into the system than 
previous methods and allows for easy examination of potential changes 
to the system. Many NRO contractors are now using this technique.
    Mr. Coffman. Each space protection program is contained within its 
own Special Access Program (SAP) with a limited number of billets, 
creating knowledge silos. How should DOD and the Intelligence Community 
balance security concerns with their ability to leverage technology and 
capabilities across the government and industry?
    Mr. Faga. SAP programs are valuable because they successfully 
maintain secrecy for very long periods such as the entire development 
period for a new capability. Often, knowledge of the very existence of 
a vulnerability being exploited by a SAP program, or knowledge of the 
existence of the SAP program even absent any details, is enough to make 
it worthless. In such cases, very tight security is clearly necessary.
    There are two problems with SAP programs of which I am aware: 1. 
Once a program is put into SAP status, the security program is 
developed by the Program Manager. This means that there is little 
consistency among the various SAP programs. While I am in favor of the 
very strict security programs used, they should be consistent among 
them. 2. The highly classified nature of SAPs and exacerbated by the 
point above, it is often very hard to provide the capability to 
legitimate users, be they intel analysts or combat commanders. In the 
case of the combat commander, for example, it is vital that the 
capability be understood, practiced with and accessible in a combat 
situation. This is often not the case. The key question is whether this 
magnificent technical capability is able to offer operational value. I 
have seen war-game situations where an important SAP capability wasn't 
available to a combatant commander because the command and control link 
was knocked out but the system itself remained functional.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
